<html>
<title> - THE BENEFITS OF PHYSICAL AND HEALTH EDUCATION FOR OUR NATION'S CHILDREN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
THE BENEFITS OF PHYSICAL AND HEALTH EDUCATION FOR OUR NATION'S CHILDREN 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 24, 2008

                               __________

                           Serial No. 110-104

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

43-471 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 













                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director














                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 24, 2008....................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania:
        Prepared statement of....................................    62
        Questions submitted to witnesses and their responses.....    66
    Keller, Hon. Ric, a Representative in Congress from the State 
      of Florida.................................................    11
        Prepared statement of....................................    13
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin...............................................    15
        Prepared statement of....................................    17
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................    62
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington, prepared statement of........    63
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................    10
        Tribute to Representative Mary T. Norton.................     2
        Biography of Representative Norton.......................     6
        Levi, Jeffrey, Ph.D., executive director, Trust for 
          America's Health, prepared statement of................    64
    Wamp, Hon. Zach, a Representative in Congress from the State 
      of Tennessee...............................................    18
        Prepared statement of....................................    24

Statement of Witnesses:
    Benson, Lori Rose, director, Office of Fitness and Health 
      Education, New York City Department of Education...........    34
        Prepared statement of....................................    37
        Responses to questions for the record....................    66
    Brown, Tim, former NFL all-pro player, national chairman, 
      Athletes and Entertainers for Kids.........................    42
        Prepared statement of....................................    44
    Keiser, Robert, student advisor to Gov. Charlie Crist, 
      Council on Physical Fitness................................    38
        Prepared statement of....................................    40
    Pate, Dr. Russell, associate vice president for health 
      sciences, professor, Department of Exercise Science, Arnold 
      School of Public Health, University of South Carolina......    29
        Prepared statement of....................................    31
        Responses to questions for the record....................    68
    Simmons, Richard, ASK America................................    26
        Prepared statement of....................................    28
        Printed handout..........................................    69


THE BENEFITS OF PHYSICAL AND HEALTH EDUCATION FOR OUR NATION'S CHILDREN

                              ----------                              


                        Thursday, July 24, 2008

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:08 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Woolsey, 
McCarthy, Tierney, Kucinich, Wu, Holt, Davis of California, 
Sarbanes, Loebsack, Altmire, Hare, Courtney, Shea-Porter, 
Castle, Platts, and Keller.
    Also present: Representatives Kaptur, DeLauro, and Sires.
    Staff present: Tylease Alli, Hearing Clerk; Alfred Amado, 
Legislative Fellow for Education; Alice Cain, Senior Education 
Policy Advisor (K-12); Lynne Campbell, Legislative Fellow for 
Education; Alejandra Ceja, Senior Budget/Appropriations 
Analyst; Fran-Victoria Cox, Staff Attorney; Adrienne Dunbar, 
Education Policy Advisor; Denise Forte, Director of Education 
Policy; David Hartzler, Systems Administrator; Liz Hollis, 
Special Assistant to Staff Director/Deputy Director; Lloyd 
Horwich, Policy Advisor, Subcommittee on Early Childhood, 
Elementary and Secretary Education; Fred Jones, Staff 
Assistant, Education; Jessica Kahanek, Press Assistant; Ann-
Frances Lambert, Special Assistant to the Director of Education 
Policy; Stephanie Moore, General Counsel; Jill Morningstar, 
Education Policy Advisor; Alex Nock, Deputy Staff Director; Joe 
Novotny, Chief Clerk; Rachel Racusen, Communications Director; 
Meredith Regine, Junior Legislative Associate, Labor; Thomas 
Webb, Disability Policy Fellow; Margaret Young, Staff 
Assistant, Education; Mark Zuckerman, Staff Director; Stephanie 
Arras, Minority Legislative Assistant; James Bergeron, Minority 
Deputy Director of Education and Human Services Policy; Cameron 
Coursen, Minority Assistant Communications Director; Kirsten 
Duncan, Minority Professional Staff Member; Alexa Marrero, 
Minority Communications Director; Chad Miller, Minority 
Professional Staff; Susan Ross, Minority Director of Education 
and Human Services Policy; and Linda Stevens, Minority Chief 
Clerk/Assistant to the General Counsel.
    Chairman Miller [presiding]. The committee will come to 
order.
    We have a committee ceremony this morning just for a couple 
of minutes, if we might, unveil the portrait of former 
representative Mary Norton--before the committee.
    And I am pleased to be joined by my very good friends, 
Representative Marcy Kaptur, Representative Rosa DeLauro, and 
Representative Rush Holt, and Representatives Albio Sires and 
Donald Payne from New Jersey, which Ms. Norton represented.
    She was a true pioneer for women, for workers, and for 
American families.
    Over the past 2 years, the primary focus of this committee 
has been to strengthen and grow America's middle class. We have 
worked to help make college affordable and a reality for every 
qualified student who wants to attend.
    We have worked to make our nation's workplace safer and 
fairer to workers and to ensure that all Americans can receive 
decent pay and benefits in exchange for their hard work in 
jobs.
    No one embodied these goals or fought harder on behalf of 
working families than Representative Norton, or ``Battling 
Mary,'' as she was referred to during the quarter century that 
she served in Congress.
    During her time as chairwoman of this very committee, she 
paved the ways in many landmark labor laws that have made this 
country a better place to live and work. She personally 
shepherded the first Fair Labor Standards Act through the House 
and established the 40-hour work week and the first minimum 
wage.
    It could not be more fitting that we are honoring Mary 
today, the same day that millions of minimum-wage workers will 
receive another pay increase that was enacted by Congress in 
the last session.
    She also fought tirelessly for equal pay for women, an 
effort this committee is continuing to build on today when we 
mark up the Paycheck Fairness Act.
    I am extremely proud that Mary's portrait will be watching 
over us as we take another step toward ensuring that all 
workers are treated fairly and equally. There are many 
parallels between the challenges that plagued the American 
economy during Mary's years in the Congress and the struggles 
that American families are facing today in today's economic 
downturn.
    By hanging her portrait in our hearing room to, we honor 
the invaluable contributions that Mary made to this Congress 
and to this country.
    And we vow to continue to build on the foundations she 
first laid decades ago by working to improve the lives of our 
children, students, and workers so that every family in this 
country can, again, claim their piece of the American dream.
    And with that, I would like to recognize the person most 
responsible for today's ceremony, Congresswoman Marcy Kaptur of 
Ohio. [Applause.]
    Ms. Kaptur. Mr. Chairman, thank you.
    Who chairs this committee makes a huge difference, not just 
for Mary Norton, but for working people across our country and 
globe.
    What a joy it is to be here today with you.
    I know Speaker Pelosi had shepherded this portrait in her 
personal office after we found it in a closet buried in an 
annex building up here on Capitol Hill. What an embarrassment 
to our country. She belongs here.
    And the champion of blue-and pink-collar workers across our 
nation and symbolic of their great struggle, it is a joy for me 
to be here with Congresswoman DeLauro. There could be no better 
spokesperson for women and for the cause of rank-and-file 
workers anywhere than Rosa.
    And, of course, Congressman Rush Holt of New Jersey, who 
never forgot what Mary Norton's life meant and helped push this 
long ceaselessly, I thank him so much for that.
    And Donald Payne, Dale Kildee, Albio Sires, who did so much 
to make this day a reality, thank you all.
    I just want to state, for the record, that Mary Norton was 
49 years of age when she was elected. She was the first 
Democratic woman elected east of the Mississippi River to serve 
in this Congress of the United States.
    And she was the first woman from an urban center in our 
country. She said on her election, ``No novice in politics was 
ever more innocent than I.''
    And upon election, of course, photographers streamed to her 
home, and she had over 40 reporters before noon in her home. 
And she said one photographer had to be rebuffed when he asked 
her to pose for photographs standing by the stove and hanging 
clothes on the clothesline.
    And she informed him that she expected to deal with 
legislation in Congress, and I do not expect to cook, and I do 
not expect to wash any clothes in Congress.
    But then in a very housewifely manner, she added, ``It took 
days to get the smell out of my living room curtains of the 
flashlights that were taking this--in those days before 
smokeless bulbs.''
    So she did have some clean-up to do after that.
    Let me say for the record, also, Mr. Chairman, she was the 
first woman--first member, male or female, to chair three House 
committees. In addition to this committee, she chaired the D.C. 
Committee where she became known as the mayor of Washington, 
and also House Administration.
    She was the eldest daughter of Irish-Catholic immigrant 
parents, and tragically, she lost her only child and was not 
able to bear children.
    But through the inspiration of a Monsignor Smith in Jersey 
City, she became a champion of daycare centers, and it was 
actually her network of daycare centers that provided her with 
the political base, ultimately, to be elected to the Congress 
of the United States.
    But she never began with that in mind.
    It just is a true joy for me to be here today.
    And let me just end with this statement. When she served on 
the D.C. Committee, Representative Frank Bohn on the committee 
declared, ``This is the first time in my life I have been 
controlled by a woman.''
    And Norton responded, ``It is the first time I have had the 
privilege of presiding over a body of men, and I rather like 
the prospect.'' [Laughter.]
    Thank you so very much. Thank you, Chairman Miller. 
[Applause.]
    Ms. DeLauro. Thank you so much, Mr. Chairman, and what a 
delight it is to be here this morning as we celebrate a 
remarkable woman. And it is the 70th anniversary of probably 
her most outstanding achievement.
    What my colleague, Marcy Kaptur, didn't say about the 
committee, as you know, when the chair of the labor committee 
passed away and she was the next in line, excuse me, gentleman, 
but some of the good-old boys didn't want to see Mary come to 
be chair. They tried to persuade her to stay on another 
committee.
    And she thought about it, and she said no. I am going to 
the labor committee, and that is where we can, probably, do 
some good.
    Chairman Miller, let me just say to you--and everyone in 
this room knows what a fighter you are for the working people 
of this nation--you have restored this committee's great 
purpose.
    Once again, Marcy, thank you for keeping good--into Rush 
Holt, into Donald Payne, and Albio Sires, and my colleagues 
from New Jersey, I am so proud to share this special moment as 
we recognize the legacy of Mary Norton.
    And she was indeed called ``Battling Mary.'' And she laid 
the foundation that we build on today. She did it, as Marcy has 
so aptly portrayed, with a skillful blend of strength and with 
compassion.
    And that is why we have introduced a resolution recognizing 
her leadership and the pile of work that she did driving the 
four labor standards acts.
    As we have been dealing with the Equal Pay Act these days, 
and amendments to the Fair Labor Standards Act, I had looked 
at--I know my colleagues have--we studied the strength of its 
framework, and we come to appreciate just what a significant 
role that this legislation has played in our labor history and 
our history as a nation.
    Minimum wage, overtime pay, child labor laws, her efforts 
make them possible; they have become the pillars of our fair 
and our prosperous society today.
    And, again, what Marcy--to follow on something that Marcy 
Kaptur said--during the war, Mary Norton set up daycare centers 
through the federal government so that the women who were 
working in the factories could have their children safely taken 
care of. And without any vision after that war, those daycare 
centers were dismantled and, fortunately, we are changing that 
direction.
    This is what is so special about the portrait. It not only 
honors Mary Norton, but her profound legacy. It serves as a 
reminder why we are here and what we should be fighting for.
    And the people that Mary Norton fought for wanted only to 
share in the American dream: Honest pay for an honest day's 
work, buy a home, raise a family, celebrate and educate their 
children; to enjoy the fruits of life in a prosperous country. 
Mary Norton never forgot that. She never forgot where she came 
from. We must never forget Mary Norton, a champion of the 
American worker who saved our nation.
    For the years to come, this portrait is a fitting tribute.
    Thank you very much, Mr. Chairman. [Applause.]
    Chairman Miller. Congressman Rush Holt?
    Mr. Holt. Thank you, Chairman Miller, and especially thanks 
to our colleague, Marcy Kaptur, who rescued this portrait from 
a closet.
    And to Speaker Pelosi, who then prominently hung this as a 
tribute to this outstanding legislator, not just the first 
woman to run the New Jersey Democratic Party, not just the 
first woman to head any state's party, not just the first woman 
to represent an eastern state in Congress, not just the first 
Democratic woman in Congress, not just the first person to 
chair three congressional committees, not just a token by any 
means.
    She identified issues of maternity leave, child care, 
latch-key children, displaced homemakers, equal pay for equal 
work.
    She raised survivor's benefits for women whose sons were 
killed in the First World War, established the Fair Employment 
Practice Committee, helped extend Federal Employees Retirement 
System to secure pensions for elected and executive offices, 
served as a delegate to international labor in Paris.
    But what she said she was most proud of--``More than 
anything else I have done in my life,'' she said, ``was to pass 
the Fair Labor Standards Act.''
    And I particularly wanted to see her portrait hung in this 
because of, well, our own current-day issues with protecting 
workplace fairness and my own family's history in protecting 
wages and hours.
    This was a controversial move. We had to fight with the 
Supreme Court even back then. And she used parliamentary 
ingenuity to get this protection for the 40-hour work week, for 
outlawing child labor, for establishing a minimum wage of $.25. 
But it did establish a minimum wage. And then she soon saw to 
it that it was raised to $.75--a big deal.
    A legislator whose career we should honor, and I am pleased 
that the committee, through Chairman Miller's leadership, will 
be honoring her as a portrait prominently displayed in the 
Committee on Education and Labor.
    Chairman Miller. Congressman Sires, Congressman Payne, our 
New Jersey colleagues, they all represented, at one time or 
another, the district of Mary Norton.
    If you have a quick word you would like to say----
    Mr. Payne. I will be very short, but it is, indeed, an 
honor.
    Congressman Sires and I both share Jersey City, and so this 
makes us very, very proud.
    It is interesting that we are dealing today with issues of 
childhood obesity, and we just think of Representative Norton, 
who was doing this many, many years ago.
    And so we are extremely proud of her and we are proud to 
also serve this great city of Jersey City.
    Thank you.
    Mr. Sires. Thank you, Don.
    First, let me thank Speaker Pelosi, Chairman Miller.
    Marcy, thank you very much.
    Rush, thank you very much.
    It really is an honor to be sitting here and unveiling this 
today, especially with ``Battling Mary'' and knowing where she 
came from, Jersey City.
    Let me tell you, she must have been a very special woman 
because it was at a time, in Hudson County, Jersey City, that 
it was very difficult to be a politician.
    The success that she had in Congress is overwhelming. So I 
am just very proud and very thankful for this unveiling, and I 
am sure the people back home are going to be very proud that 
this picture is hanging here today.
    Thank you very much.
    Chairman Miller. Thank you.
    Now, if my colleagues will join me at the portrait----
    Mr. Kildee, Lynn Woolsey, join us also, please. [Applause.]
    [A biography of Representative Norton follows:]

                             Mary T. Norton

   United States Representative, 1925-1951, Democrat From New Jersey

    For a quarter century in the House, colleagues knew Mary T. Norton 
as ``Battling Mary,'' a reformer who fought for the labor and the 
working-class interests of her urban New Jersey district. An apprentice 
with one of the most notorious Democratic political machines in 
America, Norton emerged from Jersey City as the first woman to 
represent an eastern state and eventually chaired four House 
committees. Norton's career was defined by her devotion to blue-collar 
concerns.
    Mary Teresa Hopkins was born on March 7, 1875, in Jersey City, New 
Jersey. She was the second surviving child of Thomas Hopkins, a road 
construction contractor, and Maria Shea, a governess. Mary kept house 
after her mother died and graduated from Jersey City High School. She 
moved to New York City in 1896 and attended Packard Business College. 
She later worked as a secretary and stenographer until she married 
Robert Francis Norton in April 1909. To cope with the death of her one-
week-old son, Robert, Jr., in 1910, she began working at the Queen's 
Daughters Day Nursery and, within three years, became its secretary. By 
1916, she was elected nursery president. It was in her capacity as a 
fundraiser for the nursery that she made a large number of political 
contacts. Robert Norton, who died in 1934, supported her career to the 
end.
    After World War I, in search of municipal support for the nursery, 
she met Jersey City's mayor and powerful political boss, Frank ``I Am 
the Law'' Hague. Mayor Hague took office in 1917 and controlled Hudson 
County politics for three decades with a mixture of patronage, programs 
for his labor constituency, and, at times, direct intimidation of his 
opponents. Eager to bring newly enfranchised women into the Democratic 
Party (and under his political machine), the mayor pressed Norton to 
enter politics as his protege. ``It's your duty to organize the women 
of Jersey City,'' Hague commanded. When Norton, who had not been 
involved in the suffrage movement, protested that she didn't know 
politics, Hague snapped back, ``Neither does any suffragist.'' In 1920, 
with Hague's backing, Norton was the first woman named to the New 
Jersey Democratic Committee and, in 1921, was elected its vice 
chairman, serving in that capacity until 1931. She became the first 
woman to head any state party when she was elevated to chairman in 1932 
(she served until 1935 and was again named chairman from 1940 to 1944).
    On November 5, 1924, with Hague's key endorsement, Norton won 
election to a Jersey City U.S. House seat--recently vacated by the 
retiring Representative Charles O'Brien. As the first woman to 
represent an eastern state, she beat Republican Douglas Story by more 
than 18,000 votes (62 percent of the total vote). Re-elected in 1926 by 
a landslide 83 percent of the vote, she dominated her subsequent 11 
elections appealing to a heavily Democratic constituency, increased by 
reapportionment in 1932.
    During her first term, Norton received an assignment on the World 
War Veterans Legislation Committee. She would later serve on and 
eventually chair four committees: Labor, District of Columbia, 
Memorials, and House Administration. As a freshman she also encountered 
head-on the House patriarchy. Once, when a colleague deferred to her as 
a ``lady,'' Norton retorted, ``I am no lady, I'm a Member of Congress, 
and I'll proceed on that basis.''
    Although she befriended Hague for life, Norton maintained that the 
mayor had not sought to influence her vote in Congress. She shared 
fundamentally, however, in Hague's desire to promote the interests of 
the district's mostly working-class and Roman Catholic constituency. In 
keeping with the views of the American Federation of Labor, Norton 
opposed the Equal Rights Amendment which, she feared, would erode 
legislative protections for women in industry. While rejecting such a 
constitutional amendment, however, Norton embraced a role as a leading 
advocate for legislation to improve the lives of working-class families 
and women. She favored labor interests, introducing legislation to 
exempt the first $5,000 of a family's income from taxation, creating 
mechanisms to mediate labor-management disputes in the coal mining 
industry, raising survivor benefits for women whose sons were killed in 
World War I, and opposing the Smoot--Hawley Tariff in the late 1920s. 
Norton also was the first legislator to introduce bills to investigate 
and, later, to repeal Prohibition as codified in the 18th Amendment. It 
was eventually repealed in 1933. In 1929 she opposed the Gillett Bill, 
which would have eased restrictions on the dissemination of birth 
control information. A staunch Catholic, Norton argued that birth 
control literature would not be required if ``men and women would 
practice self-control.''
    When Democrats won control of the U.S. House in 1931, Norton, as 
ranking Democrat of the Committee on the District of Columbia, became 
its chairwoman. When a male member exclaimed, ``This is the first time 
in my life I have been controlled by a woman,'' Norton replied, ``It's 
the first time I've had the privilege of presiding over a body of men, 
and I rather like the prospect.'' She was dubbed the ``Mayor of 
Washington'' during her tenure as chair from 1931 to 1937. It was an 
immense job. Since the federal government then administered the 
District of Columbia, all bills and petitions related to city 
management (an average of 250 per week) came across Norton's desk. She 
was acclaimed, however, for her support for a bill to provide the 
District of Columbia with self-government. Though she failed in that 
endeavor, Norton won Public Works Administration funds to build a 
hospital for tuberculosis patients, improved housing, secured the first 
old-age pension bill for District residents, and legalized liquor sales 
and boxing.
    In 1937, when Labor Committee Chairman William P. Connery, Jr., 
died, Norton resigned her chairmanship of the District Committee to 
succeed him as head of the powerful Labor Committee. She had been the 
second-ranking Democrat on the panel since 1929. When the Democrats 
gained the majority in 1931, Norton exercised increased influence over 
the evolution and passage of major legislation. By the time she became 
chair in June 1937, the so-called Second New Deal was in full swing. 
While much of the legislation passed during the first phase of the New 
Deal (1933--1935) focused on economic recovery, the second wave of 
programs sought to alleviate poverty and provide a social safety net 
that included Social Security benefits and unemployment insurance.
    Norton's crowning legislative achievement came with the passage of 
the Fair Labor Standards Act of 1938, which she personally shepherded 
through committee and onto the House Floor for a vote. The only 
significant New Deal reform to pass in President Franklin Roosevelt's 
second term, the act provided for a 40-hour work week, outlawed child 
labor, and set a minimum wage of 25 cents per hour. To get the 
controversial bill out of the Rules Committee, which determined what 
legislation was to be debated on the floor and which was controlled by 
``anti-New Deal'' conservative Democrats, Norton resorted to a little-
used parliamentary procedure known as the discharge petition. She got 
218 of her colleagues (half the total House membership, plus one) to 
sign the petition to bring the bill to a vote. The measure failed to 
pass, but Norton again circulated a discharge petition and managed to 
get a revised measure to the floor, which passed. ``I'm prouder of 
getting that bill through the House than anything else I've done in my 
life,'' Norton recalled. In 1940, she teamed up with Majority Leader 
John McCormack of Massachusetts to fight off revisions to the act and 
scolded her colleagues for trying to reduce the benefits to working-
class Americans, among which was a $12.60 weekly minimum wage. Norton 
declared, it ``is a pittance for any family to live on * * * I think 
that when Members get their monthly checks for $833 they cannot look at 
the check and face their conscience if they refuse to vote for American 
workers who are getting only $12.60 a week.''
    During World War II, Norton used her position on the Labor 
Committee to fight for equal pay for women laborers. She pushed for the 
creation of a permanent Fair Employment Practice Committee to prevent 
racial and gender discrimination in hiring and to secure pensions for 
elective and executive offices by extending the federal employee's 
retirement system. But she found much of her experience as Labor 
Committee chair in wartime frustrating because of encroachments on the 
panel's oversight and the bleak prospects of women's place in the 
postwar workforce. Critics charged that her committee was 
``ineffectual'' because the War Labor Board and the War Manpower 
Commission largely determined labor policies. Even House committees, in 
particular Naval Affairs, wrote legislation that fell properly under 
Labor's jurisdiction. She blamed part of these intrusions on the fact 
that the Labor Committee was headed by a woman. ``Those who really know 
our social system, know that women have never had very much 
opportunity,'' she said. She forecast that after the war, women would 
be pressed to vacate jobs and back into the home to make way for 
demobilized GIs seeking employment.
    In 1947, when Republicans regained control of the House and Norton 
lost her chairmanship to New Jersey's Fred H. Hartley, she resigned her 
Labor Committee seat in protest. ``He has attended only 10 meetings of 
this committee in 10 years,'' Norton declared. ``I refuse to serve 
under him.'' During her final term in Congress, when the Democrats 
wrested back majority control, she chaired the House Administration 
Committee.
    At age 75, after serving 12 terms, Norton declined to run for re-
election in 1950. She served briefly as a consultant to the Women's 
Advisory Committee on Defense Manpower at the Department of Labor in 
1951 and 1952. She left Washington to settle in Greenwich, Connecticut, 
to live near one of her sisters. Norton died there on August 2, 1959.
                            further reading
Biographical Directory of the United States Congress, ``Mary T. 
        Norton,'' http://bioguide.congress.gov
Mitchell, Gary. ``Women Standing for Women: The Early Political Career 
        of Mary T. Norton.'' New Jersey History 96 (Spring--Summer 
        1978): 27--42.
Rees, Maureen. ``Mary Norton: A Grand Girl.'' Journal of the Rutgers 
        University Libraries 47 (December 1985): 59--75.
Tomlinson, Barbara J. ``Making Their Way: A Study of New Jersey 
        Congresswomen, 1924--1994.'' Ph.D. diss., Rutgers, The State 
        University of New Jersey--New Brunswick, 1996.
                         manuscript collections
Rutgers University (New Brunswick, NJ), Alexander Library Department of 
        Special Collections and Archives. Papers: 1920--1960, 10 
        volumes and 10 boxes. Correspondence includes letters from 
        Franklin D. Roosevelt, Eleanor Roosevelt, and Harry S. Truman. 
        Also includes congressional political subjects file, speeches 
        and writings, biographical data, photographs, and scrapbooks. 
        The unpublished memoirs of Mary T. Norton and correspondence 
        concerning possible publication are included. A finding aid is 
        available in the repository.
                                 ______
                                 
    Chairman Miller. If you all bear with us 1 minute here, we 
will just make a transition to our upcoming hearing.
    A quorum being present, the hearing will come to order.
    And if I might ask the witnesses if they would take their 
seats--first, we have Congressman Kind and Congressman Wamp.
    And we will have our opening statements, and we will be 
with you in a moment.
    Pursuant to Committee Rule 12-A, any member may submit an 
opening statement in writing which will be made part of the 
permanent record.
    And the chair now recognizes himself for the purposes of 
making an opening statement. I want to welcome all of you here 
today to the hearing of the benefits of physical and health 
education for our nation's children.
    In the past 30 years, the number of obese children has 
risen dramatically across the United States. The statistics are 
nothing short of alarming. According to a recent study by the 
Centers for Disease Control and Prevention, more than 30 
percent of U.S. school children are now obese.
    Since 1980, the percentage of 6- to 11-year-olds who are 
classified as obese has almost tripled.
    Overweight kids are now vulnerable for diseases that once 
were a rarity among children, including Type 2 diabetes, 
hypertension and breathing irregularities while sleeping. 
Overweight children and adolescents are also at a greater risk 
of developing heart disease, high cholesterol, and high blood 
pressure.
    This onslaught of obesity-related diseases also comes with 
dire financial consequences for our country. The CDC estimates 
that the cost of treating diseases linked to obesity grew by 
$23 billion between 1995 and 2003.
    In other words, it is clear that childhood obesity has 
become one of the most pressing challenges facing our nation. 
The question is: What are we going to do about it?
    Today, we will examine how we can best combat this 
staggering obesity epidemic and improve the health, well-being, 
and success of our school children.
    While today's hearing will focus primarily on how we can 
increase physical education in our schools, we know that 
improving exercise is only one-half of the equation. Providing 
more nutritious foods for school children is also critical.
    In preparation for next year's reauthorization of our 
federal child nutrition programs, this committee has been 
looking closely at what we can do to help schools offer 
healthy, low-cost meals that children will want to eat. And I 
hope that today's hearing helps inform us on that effort.
    As a 2006 report by the U.S. Government Accountability 
Office concluded, the most important way to fight obesity is to 
increase physical exercise.
    But unfortunately, America's school children are less 
physically active than ever before. Children are spending more 
and more of their free time watching TV, surfing the Internet, 
and playing video games.
    The typical American child now spends almost 45 hours a 
week using media outside of the school.
    Just last week, the National Institute of Health released a 
new study showing that kids are exercising far less intensely 
as they move into their teenage years. At the very time that 
kids are exercising less, schools are also cutting back on 
recess and physical education classes.
    Daily physical education classes, once routine in schools, 
are now offered by less than 10 percent of all public schools. 
Although, the National Association for Sport and Physical 
Activity recommends at least 150 minutes of exercise a week for 
elementary students and 225 minutes a week for middle and high 
school students, most students face a starkly different 
reality.
    A 2005 report of the National Center for Education 
Statistics shows that, nationwide, public schools offer about 
85 minutes of exercise for first graders and only about 98 
minutes a week for sixth graders.
    This is disturbing on many levels. Multiple studies have 
shown that regular physical activity has positive effects on 
student learning. Not only does consistent exercise help 
students succeed academically, but it also can strengthen their 
concentration levels and cognitive skills.
    Given these trends, it is extremely disappointing that the 
budget that has been submitted to the Congress eliminates 
federal funding that would help expand physical education 
programs in schools.
    Schools are already being strained by skyrocketing food and 
energy prices and declining federal and state investments. 
Terminating this vital grant program takes an unfair toll on 
school children, especially low-income children who often have 
fewer opportunities to exercise outside of school.
    It goes without saying that the nation's childhood obesity 
crisis poses enormous threats to our long-term health and 
economic strength.
    Today, we will hear from a panel of experts who are well 
aware of the benefits that physical education and nutrition 
education can bring to our nation's students.
    Each of you is a true leader in these efforts to fight for 
childhood obesity, and I thank you for joining us today. And I 
look forward to your expertise and your thoughts on this 
matter.
    And at this time, I would like to recognize Congressman 
Keller, the ranking member on the subcommittee, for the purpose 
of an opening statement.

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good Morning. Welcome to today's hearing on ``The Benefits of 
Physical and Health Education for Our Nation's Children.''
    In the past 30 years, the number of obese children has risen 
dramatically across the United States. The statistics are nothing short 
of alarming.
    According to a recent study by the Centers for Disease Control and 
Prevention, more than 30 percent of
    U.S. schoolchildren are now obese. Since 1980, the percentage of 6-
11 year olds who are classified as obese has almost tripled.
    Overweight kids are now more vulnerable to diseases that once were 
a rarity among children, including type II diabetes, hypertension, and 
breathing irregularities while sleeping. Overweight children and 
adolescents are also at greater risk of developing heart disease, high 
cholesterol and high blood pressure.
    This onslaught of obesity-related diseases also comes with dire 
financial consequences for our country. The CDC estimates that the cost 
of treating diseases linked to obesity grew by $23 billion between 1995 
and 2003.
    In other words, it is clear that childhood obesity has become one 
of the most pressing challenges facing our nation. The question is: 
What are we going to do about it?
    Today we will examine how we can best combat this staggering 
obesity epidemic and improve the health, well-being, and success of our 
schoolchildren.
    While today's hearing will focus primarily on how we can increase 
physical education in our schools, we know that improving exercise is 
only one half of the equation. Providing more nutritious foods for 
schoolchildren is also critical.
    In preparation for next year's reauthorization of our federal child 
nutrition programs, this Committee has been looking closely at how we 
can help schools offer healthy, low-cost meals that children will want 
to eat, and I hope today's hearing helps inform this effort. As a 2006 
report by the U.S. Government Accountability Office concluded, the most 
important way to fight obesity is to increase physical exercise.
    But unfortunately, America's children are less physically active 
than ever before. Children are spending more and more of their free 
time watching TV, surfing the internet, or playing video games. The 
typical American child now spends almost 45 hours a week using media 
outside of school.
    Just last week, the National Institutes of Health released a new 
study showing that kids are exercising less intensely as they move into 
their teenage years.
    At the very time that kids are exercising less, schools are also 
cutting back on recess and physical education classes.
    Daily physical education classes, once routine in schools, are now 
offered by less than 10 percent of all public schools.
    Although the National Association for Sport and Physical Activity 
recommends at least 150 minutes of exercise a week for elementary 
students, and 225 minutes a week for middle and high school students, 
most students face a starkly different reality.
    A 2005 report by the National Center for Education Statistics shows 
that nationwide, public schools offer about 85 minutes of exercise for 
first-graders, and only about 98 minutes a week for sixth-graders.
    This is disturbing on many levels. Multiple studies have shown that 
regular physical activity has positive effects on student learning.
    Not only does consistent exercise help students succeed 
academically, but it can also strengthen their concentration levels and 
cognitive skills.
    Given these trends, it is extremely disappointing that the Bush 
administration's latest--and final--budget eliminates federal funding 
that would help expand physical education programs in schools.
    Schools are already being strained by skyrocketing food and energy 
prices and declining federal and state investments. Terminating this 
vital grant program takes an unfair toll on schoolchildren--especially 
low-income children who often have fewer opportunities to exercise 
outside of school.
    It goes without saying that the nation's child obesity crisis poses 
enormous threats to our long-term health and economic strength.
    America needs and deserves a President who is committed to working 
to solve it.
    Today we will hear from a panel of experts who are well aware of 
the benefits that physical and nutrition education can bring to our 
nation's students.
    Each of you is a true leader in our efforts to fight child obesity, 
and I thank you for joining us today.
    I look forward to hearing your thoughts. Thank you.
                                 ______
                                 
    Mr. Keller. Well, thank you very much, Mr. Chairman.
    I also want to thank our very impressive panel of witnesses 
for being here today to discuss the serious problem of 
childhood obesity and the benefits of physical education.
    Last month's cover story of Time Magazine says it all: Our 
supersized kids. We have a childhood obesity epidemic. Two out 
of three adults in the United States are overweight. One out of 
three children are overweight.
    Childhood obesity rates have tripled since 1980.
    We are now seeing children diagnosed with Type 2 diabetes, 
heart disease, and depression.
    What is the primary cause of our children's expanding 
waistlines? Are children eating differently than they did 30 
years ago? Well, Dr. Kenneth Cooper, the father of the aerobics 
movement, shed light to these issues when he appeared before 
our education committee.
    He said, ``Increased calories are most definitely a factor 
in the rise of overweight children, but it is absolutely not 
the only cause. A wholesale lack of physical activity is the 
primary reason for expanding waistlines.
    ``And 30 years ago, did children come home from school and 
eat cookies or potato chips before dinner? Of course, they did. 
But the difference is they consumed these snacks after walking 
or riding their bikes from school. Then they went outside and 
played with their friends unlike today when they sit on the 
sofa and play video games or watch television.''
    Of course, Dr. Cooper is right. Our kids need to spend less 
time with the PlayStation and more time on the playground.
    Although childhood obesity is a serious challenge, I 
approach this subject with a great deal of optimism and hope. 
As someone who has lost 100 pounds over the past year, I have 
seen first-hand the power of healthy habits.
    As parents, experts tell us there are three healthy habits 
our children should follow at the end of day. First, never skip 
breakfast. Second, play outside 1 hour a day. Third, eat five 
servings of fruits and vegetables every day.
    Those are the exact same healthy habits that I follow and 
will for life; that is, eating a healthy breakfast, running six 
miles a day, and eating lots of fruits, vegetables, and lean 
proteins.
    Exercise is also the secret to reducing stress. By sweating 
big time in the gym, you don't sweat the small stuff in life.
    In the interest of straight talk, I have to confess that 
there can be a down side to weight loss. As the father of four 
small children, including two girls under two, my wife has 
taken advantage of my increased energy levels. [Laughter.]
    She now makes me wash dishes and change diapers. Frankly, 
my life was easier as a fat guy. [Laughter.]
    But I digress about my own problems. What can we do to 
encourage more physical activity in our public schools? There 
the at least three things.
    First, on a national level, we can pass the Fit Kids Act, 
H.R. 3257, co-authored by Congressman Ron Kind and Zach Wamp, 
to help bring back physical education in our public schools.
    Congressman Kind and Wamp are co-chairs of the 
Congressional Fitness Caucus and, in my opinion, the top two 
leaders in the United States Congress when it comes to 
promoting physical fitness. I am honored to be a co-sponsor of 
their important legislation.
    The second thing we can do is to use our bully pulpit to 
encourage more governors to bring back P.E. into their state's 
public school systems.
    For example, I am very proud that in my home state of 
Florida, Governor Charlie Crist recently successfully pushed 
through legislation requiring physical education classes for 
all elementary and middle school students.
    A third thing we can do is to go into our local public 
schools and encourage physical fitness either by helping to 
pass out the President's Council on Physical Fitness Awards or 
by creating our own congressional fitness challenge awards.
    For example, on May 2nd of this year, I took two-time 
Olympic gold medalist, Dr. Dot Richardson, with me to Hillcrest 
Elementary School in my hometown of Orlando, Florida. Dot was 
the short shop on the women's Olympic softball, team and she 
hit the game-winning homerun to win the gold medal in the 1996 
Olympics. She then won a second gold medal in 2000.
    As an orthopedic surgeon, Dr. Dot Richardson showed the 
kids that they can be both smart and athletic at the same time. 
Together, Dot and I spoke to the kids, passed out the 
Presidential Council on Physical Fitness Awards, and handed out 
awards that I created from my own congressional fitness caucus 
for the boys and girls in each class who showed the most 
improvement over the course of the year.
    We also made some mistakes.
    The P.E. teacher selected the fastest girl and fastest boy 
in the school to challenge Dot and I respectively to a foot 
race.
    We accepted the challenge. Regrettably, both Dot and I 
crushed our fifth grade competitors. We were then loudly booed 
by over 300 kids and some of their parents.
    Next time, I am going to let my kid win. I can't afford to 
lose the votes.
    In conclusion, I want to thank this amazing group of 
witnesses. We have the top two congressional leaders on 
physical fitness. We have a Heisman Trophy winner. We have 
Richard Simmons, perhaps, the most famous and big-hearted fit 
advocate of our generation.
    We also have several other well-respected experts who we 
look forward to hearing from.
    Thank you all very much for being with us today. 
[Applause.]

  Prepared Statement of Hon. Ric Keller, a Representative in Congress 
                       From the State of Florida

    Thank you, Mr. Chairman. I also want to thank our impressive panel 
of witnesses for being here today to discuss the serious problem of 
childhood obesity, and the benefits of physical education.
    Two out of three adults in the United States are overweight. One 
out of three children are overweight. Childhood obesity rates have 
tripled since 1980.
    We're now seeing children diagnosed with type II diabetes, heart 
disease, and depression.
    What's the primary cause of our children's expanding waistlines? 
Are children eating differently than they did 30 years ago?
    Well, Dr. Kenneth Cooper, the father of the aerobics movement, shed 
light on these issues when he appeared before our committee. He said:
    ``Increased calories are most definitely a factor in the rise of 
overweight children, but it's absolutely not the only cause * * * A 
wholesale lack of physical activity is the primary reason for expanding 
waistlines * * * And 30 yrs ago, did children come home from school and 
eat cookies or potato chips before dinner? Of course, they did. But the 
difference is they consumed these snacks after walking or riding their 
bikes from school. Then they went outside and played with their 
friends, unlike today, when they sit on a sofa and play video games or 
watch television.''
    Of course, Dr. Cooper is right. Our kids need to spend less time 
with the Playstation, and more time on the playground.
    Although childhood obesity is a serious challenge, I approach this 
subject with a great deal of optimism and hope. As someone who has lost 
100 lbs over the past year, I've seen firsthand the power of healthy 
habits.
    As parents, experts tell us there are three healthy habits our 
children should follow everyday.
    First, never skip breakfast.
    Second, play outside one hour a day.
    Third, eat five servings of fruits and vegetables everyday.
    Those are the exact same healthy habits that I follow, and will for 
life. That is, eating a healthy breakfast, running 6 miles a day, and 
eating lots of fruits, vegetables, and lean proteins.
    Exercise is also the secret to reducing stress. By sweating big 
time in the gym, you don't sweat the small stuff in life.
    In the interest of straight talk, I have to confess that there can 
be a downside to weight loss. As the father of four small children, 
including two girls under two, my wife has taken advantage of my 
increased energy levels. She now makes me wash dishes, and change 
diapers. Frankly, my life was easier as a fat guy. But, I digress.
    What can we do to encourage more physical activity in our public 
schools? There are at least 3 things:
    First, on the national level, we can pass the Fit Kids Act, H.R. 
3257, co-authored by Congressmen Ron Kind and Zach Wamp to help bring 
back physical education in our public schools. Congressmen Kind and 
Wamp are co-chairs of the Congressional Fitness Caucus, and, in my 
opinion, the two top leaders in the US Congress when it comes to 
promoting physical fitness. I'm honored to be a cosponsor of their 
important legislation.
    The second thing we can do is to use our bully pulpit to encourage 
more governors to bring back PE into their states' public school 
system. For example, I'm very proud that, in my home state of Florida, 
Governor Charlie Crist recently successfully pushed through legislation 
requiring physical education classes for all elementary and middle 
school students in Florida.
    A third thing we can do is to go into our local public schools and 
encourage physical fitness either by helping to pass out the 
President's Council on Physical Fitness Awards, or by creating our own 
Congressional Fitness Challenge awards.
    For example, on May 2nd of this year, I took two-time Olympic gold 
medalist, Dr. Dot Richardson, with me to Hillcrest Elementary School in 
my hometown of Orlando, FL. Dot was the shortstop on the women's 
Olympic softball team, and she hit the game-winning homerun to win the 
gold medal in the 1996 Olympics. She won a second gold medal in 2000. 
As an orthopedic surgeon, Dr. Dot Richardson showed the kids that they 
can be both smart and athletic at the same time.
    Together, Dot and I spoke to the kids, passed out the President's 
Council on Physical Fitness Awards, and handed out awards I created 
from my own Congressional Fitness Challenge for the boys and girls in 
each class who showed the most improvement over the course of the year.
    We also made some mistakes. The PE teacher selected the fastest 
girl and fasted boy in the school to challenge Dot and I, respectively, 
to a footrace. We accepted the challenge. Regrettably, both Dot and I 
crushed our 5th grade competitors. We were then loudly booed by over 
300 kids, and some of their parents. Next time, I'm gonna let my kid 
win. I can't afford to lose the votes.
    In conclusion, I want to thank this amazing group of witnesses. We 
have the top two congressional leaders on physical fitness. We have a 
Heisman Trophy winner. We have Richard Simmons, perhaps the most famous 
and big-hearted fitness advocate of our generation. We also have 
several other well respected experts who we look forward to hearing 
from.
    Thank you all for being with us today.
                                 ______
                                 
    Chairman Miller. Thank you. Thank you very much.
    Before I turn to the witnesses, I would like to recognize 
one of our staff members who participated in organizing this 
hearing and will be leaving us next month, and that is Jill 
Morningstar.
    Stand up, Jill. [Applause.]
    Jill has been with us relatively for only a short time, but 
in that short time, she has had a tremendous impact on our work 
here on the committee.
    She has been a critical member of our No Child Left Behind 
team, offering not just her technical knowledge on various 
issues, such as testing and English-learner standards, but also 
her political skills and her understanding of the civil rights 
and education communities.
    She brought with her a high level of energy and enthusiasm 
of the job and has never hesitated in her role as my policy 
adviser.
    We ask a lot from our staff, and Jill has always responded. 
In fact, she brought Tim Brown to us today even though she is a 
passionate Patriots fan. [Laughter.]
    We would never have hired you if we knew that.
    Jill, we are going to miss you and all of your 
contributions and all of your expertise. And thank you for your 
time and dedication to the committee's agenda.
    With that, I would like to turn to our first panel, and I 
want to join my colleague, Ric Keller, in saying that I am 
introducing two individuals who have taken this issue to heart.
    They are very persistent. They pester you all the time. It 
is the only thing they want to talk to you about no matter 
where you are. And as a result of that, we are here today. And 
so they are moving the agenda.
    First is Congressman Ron Kind, who has represented the 
people of western Wisconsin's third congressional district 
since 1996. Congressman Kind is a member of the House Ways and 
Means Committee and the National Resources Committee.
    Our next witness will be Congressman Zach Wamp, who 
represents the third district of Tennessee. He is a member of 
the House Appropriations Committee and the ranking member on 
the Subcommittee on Military Construction and Veterans Affairs. 
And he has served 10 years on the Energy and Water 
Subcommittee.
    And I joke with him a lot because I know whatever they talk 
to me about, we are going to end up talking about physical 
fitness, obesity, exercise, and all of the rest of it. And we 
are very appreciative of your persistence on this matter. And 
we look forward to your testimony.
    And Ron, we will begin with you.

 STATEMENT OF HON. RON KIND, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF WISCONSIN

    Mr. Kind. Thank you, Chairman Miller, Ranking Member 
Keller, and members of the committee.
    It is good to be home.
    In my first 10 years here in Congress, I had the pleasure 
of serving on this committee, and I especially appreciate the--
--
    Chairman Miller. We do an inordinately good job here 
training people for membership on other committees.
    Mr. Kind. That is right.
    Well, I know the important job that you do here. And we 
apologize for our persistence, but we also realize that we 
truly are preaching to the choir here.
    The members of this committee certainly understand the 
challenge that we are facing with childhood health generally in 
this country. And it is obvious that we have a lot of support 
behind us, and you are going to hear it with the distinguished 
second panel, the real star power that is here today.
    So I am going to try to get to the point and try to 
abbreviate my remarks.
    But, you know, the number one health care crisis that our 
children are facing today--it is not cancer, it is not 
accidents, it is not drugs or alcohol or smoking. It is the 
advent of childhood obesity and the early onset of Type 2 
juvenile diabetes and all of the consequences that flow from 
that.
    And we realize, too, that we truly need a comprehensive 
societal approach in this country to have any meaningful impact 
to address this issue.
    Kids, wherever they are, need positive reinforcement in 
whatever setting they find themselves; in the home, in their 
neighborhoods, communities, even in their schools. And the Fit 
Kids legislation that Zach and I and Representative Inslee have 
introduced with over 60 co-sponsors, many of whom are sitting 
here on this committee, addresses just one aspect of that 
comprehensive plan.
    I commend Representative Sarbanes for his No Child Left 
Inside legislation that is worthy of moving forward and getting 
implemented as well. It is another piece to this overall 
puzzle.
    But the trend lines have been very discouraging, and if we 
don't get out ahead of this issue soon, there are going to be 
deep societal consequences that will result.
    And the studies are clear, and they have been coming in by 
the loads. So we know that increased physical activity leads to 
better performance in the school. We know that it is, you know, 
virtually impossible to develop a healthy mind without a 
healthy body.
    We know this affects kids at all ages, at all levels of 
development, and we know that with the right type of physical 
regimen in school, the teachers report back with decreased 
disciplinary problems in the classroom, more attention, less 
drop-out rates, higher school test scores.
    It is a win-win-win-win all around.
    And the legislation that we have offered would refocus and 
have a reemphasis of physical education in our schools. And we 
all know that it is a patchwork out there. Some states are 
doing better. Some school districts certainly are doing better 
than others.
    But it is not uniform throughout the country, and that is 
what we are trying to accomplish with the legislation.
    We also realize that our request to have this included in 
the Reauthorization of the Elementary and Secondary Education 
Act isn't going to happen this year for a variety of reasons.
    The initial legislation that we introduced was hoping to 
make this a part of the multiple measurements of progress in 
schools. There have been a variety of concerns raised over that 
issue, and we are willing to compromise even though we feel 
that it was the right approach to begin with, but if by 
compromising, we can move this legislation sooner, in fact 
right away, we are willing to do that and then have a broader 
discussion as far as how this will fit into the reauthorization 
of the Elementary and Secondary Ed Act when it does come up, 
hopefully, sometime next year.
    But it is an overriding issue, and we are going to need 
support at all levels, including the celebrities of our 
country.
    And we have got Richard Simmons, who has been an absolute 
champion in promoting children's health throughout the country. 
And those of us who know Richard, you can't help but love 
Richard because of the energy and the compassion that he brings 
to the subject. And I would venture to guess virtually all of 
us in this committee room know Richard and his history and his 
cause to improve the health of our country.
    But I will also venture to guess that the hundreds of 
schools that he has gone in to visit and the kids he has worked 
with, they don't know who Richard Simmons is. But within a 
couple of minutes of being in his presence, they naturally 
gravitate to his energy. He is a magnet for them.
    The promotion that he has done has been outstanding. I have 
had the pleasure of watching him on numerous talk shows 
promoting kids' health and Fit Kids generally. And the American 
people get it.
    When he tells them, the live audience, what he is up to, 
they typically break out in spontaneous applause because they 
know we need to be doing more as a country to address kids' 
health and also, you know, the role that physical education can 
provide in that.
    A couple of years ago when I was sitting on the committee, 
the committee had a hearing on the integration of classroom 
curriculum into P.E. courses. And it is exciting because this 
brings in all of the students.
    The P.E. today is not the P.E. we knew growing up; 
kickball, dodge ball, or organized sports. Physical education, 
now, can incorporate all kids at all levels, at all athletic 
abilities.
    And as Richard will probably testify to as well, it is a 
large element of self-esteem.
    And we also need, you know, celebrities like Tim Brown who 
is here to testify, the professional athletes and our society. 
Whether they like it or not, they are looked up to by our kids.
    I have got two little boys myself who idolize the Green Bay 
Packers and everything about Brett Favre and these sports 
heroes. And they pay very close attention to what they do on 
and off the field and what they say.
    And with the help of people like Tim Brown and Reggie Bush 
and Shaquille O'Neil and other professional athletes, we just 
need to penetrate this message, and over and over again give 
the kids the positive reinforcement that they desperately need 
so that they can start making healthy lifestyle choices from 
day one which will continue throughout their entire life.
    We know Fit Kids isn't going to be the answer to the great 
challenge of childhood obesity. We think it is an important 
part of the overall puzzle that we are trying to piece together 
here.
    And with the committee's help, and with some compromises 
with us and working with the committee to get the legislation 
done in the right manner, we are hoping, maybe, with the 
limited time we have left yet this year, this might be an 
appropriate bill for the suspension calendar given the wide 
bipartisan support that it has gotten so far.
    And I just want to conclude, too, in commending the 
American Heart Association for the unbelievable job that they 
have done through these as far as promoting health and 
children's health, but also their support for Fit Kids and the 
effort they have made in spreading the word throughout the 
country.
    I know we have been preaching to the choir here. You guys 
understand that. You know the statistics and the trend lines, 
and we will look forward to working with you in the coming days 
to see if we might be able to get this package on the floor 
before the end of the session.
    Thank you, Mr. Chairman.
    [The statement of Mr. Kind follows:]

Prepared Statement of Hon. Ron Kind, a Representative in Congress From 
                         the State of Wisconsin

    Chairman Miller, Ranking Member McKeon, and members of the 
committee, thank you for this opportunity to testify on the importance 
of physical and health education for our children.
    I would also like to thank Representative Sarbanes for his 
leadership on the No Child Left Inside Act. As a proud cosponsor of 
this bill, I look forward to supporting it when it comes before the 
full House of Representatives for a vote. Finally, I would like to 
thank Richard Simmons for his tireless advocacy on the importance of 
fitness and physical activity.
    This hearing could not come at a more important time. Rates of 
childhood obesity have reached epidemic proportions in the United 
States. Currently 25 million children in America are obese. The 
childhood obesity rate has tripled since 1980, and continues to rise. 
It is estimated that by 2010, twenty percent of children in the U.S. 
will be obese.
    The consequences of this epidemic are significant and 
disheartening. Overweight children and teens are much more likely to 
develop cardiovascular disease, Type II diabetes, asthma, sleep apnea, 
and various forms of cancer. Because of the increased prevalence of 
these conditions, today's children might become the first generation in 
American history to have shorter lives than their parents.
    In addition to the impact obesity has on children's health and 
well-being, it also has a staggering effect on our nation's economy. 
According to the Department of Health and Human Services, the direct 
health care costs of obesity were more than $60 billion in 2002. Half 
of these costs are paid for by Medicare and Medicaid. We cannot solve 
our health care crisis without addressing the obesity crisis.
    Research suggests that the childhood obesity epidemic is largely 
due to a decline in regular physical activity and a diet high in empty 
and fat-laden calories. A lack of regular physical activity not only 
hurts a child's health, it can also affect their academic development, 
as research also shows that healthy children learn more effectively and 
are higher academic achievers. Simply put, healthy minds need healthy 
bodies.
    With the increase of video games and television usage, schools are 
one of the few remaining places where children have an environment that 
encourages physical activity. Unfortunately, due to a lack of resources 
and competing academic demands and testing, many schools are cutting 
physical education programs. Between 1991 and 2003, enrollment of high 
school students in daily physical education classes fell from 42 
percent to 28 percent.
    That is why I joined with Representatives Zach Wamp and Jay Inslee 
in sponsoring the Fitness Integrated with Teaching Kids Act or FIT Kids 
Act, H.R. 3257. This bill would help schools provide a comprehensive 
physical education that would give all children an opportunity--
regardless of their background--to learn healthy habits and get moving. 
This would improve their math and reading test scores, get to the root 
of the obesity epidemic, and get kids on a healthy path early in life.
    Specifically, this bill would provide information to parents and 
the public by requiring all schools, districts, and states to report on 
students' physical activity. This information would include the amount 
of time spent in required physical education in relation to the 
recommended national standard and the percentage of age-appropriate 
physical education curriculum and certified physical education 
teachers.
    In addition, the bill promotes physical education and activity in 
school programs, supports professional development for faculty and 
staff to promote kids' healthy lifestyles and physical activity, and 
authorizes a study and pilot program to support effective ways to 
combat childhood obesity and improve healthy living and physical 
activity for all children.
    Finally, while section 4 of the FIT Kids Act adds physical 
education to the multiple measures for determining accountability with 
No Child Left Behind, Mr. Wamp and I only intended this language to be 
a `placeholder' indicating our support for physical education to be 
included in any modified assessment of schools' progress that may be 
crafted during the reauthorization of the Elementary and Secondary 
Education Act. We therefore would not object to the removal of this 
section.
    Parents are concerned about the childhood obesity epidemic and 
believe that schools are a good starting point to address this problem. 
According to an extensive study done by the Trust for America's Health, 
less than one-third of adults think that children participate in 
adequate amounts of physical activity during the school day.
    The FIT Kids Act is an important step in making our children more 
physically active. By teaching kids healthy habits early in life and 
increasing their physical activity, we will help reduce childhood 
obesity, improve academic scores, save billions of dollars in health 
care costs, and save lives.
    Thank you again for showing your support for improving the lives of 
our children through increased physical activity and education. I 
believe this is one of the most important issues facing us today and I 
look forward to working with the committee on this issue.
                                 ______
                                 
    Chairman Miller. Thank you. [Applause.]
    Zach?

STATEMENT OF HON. ZACH WAMP, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF TENNESSEE

    Mr. Wamp. Chairman George Miller, thank you for your true 
belief in the benefits of physical activity and wellness. 
Usually, when I bother you, you are on the bicycle and you are 
sweating profusely, and I am very proud of you.
    Chairman Kildee, thank you for leading with us and 
believing in us well.
    For Ranking Member Keller, he is the fitness caucus hero of 
the decade because nearly 6 years ago, I founded the 
Congressional Fitness Caucus to educate, advocate, and 
sometimes legislate solutions to our health care dilemma today.
    Ric Keller did it the old-fashioned way: Without surgery, 
totally by fitness and diet. Wellness, the model--how do you 
lose a hundred pounds the old-fashioned way? He did it through 
sweat and really watching what he ate, with patience, the 
deliberate way.
    And we are so very proud of what you have done, Ric Keller. 
You are the model for how to lead by example, and we are 
grateful for your leadership.
    We can't----
    [Applause.]
    Thank you. We can't always legislate these solutions, that 
is why I say educate and advocate. But sometimes you need to 
legislate, and I want to tell you how proud I am of Ron Kind 
and Fit Kids and the way he just presented the case.
    And I don't want to be redundant. You can read my written 
statements.
    So let me just hit a couple of points that I think are 
very, very important here as we look toward preventive health 
care solutions in the future for America.
    Whether it is President McCain or President Obama, health 
care is going to be a central issue because for too long, we 
have basically avoided this massive, complex issue and it has 
focused too much on the end result, Medicare, long-term care, 
the expenses associated with the end of your life, when the 
most bang for the buck is in prevention.
    And it starts early. By the fourth grade, every American 
should know the consequences of physical inactivity. They 
should know that there is a dial in their life that must be 
adjusted. Calorie burn versus calorie intake.
    They should know by the fourth grade that if they are 
sentenced to a life of challenges and physical problems 
associated with obesity and hypertension and high blood 
pressure, they may never live to their fullest potential.
    That is what Richard Simmons has dedicated his entire 
career to is saving that one child through education and 
understanding of the consequences of physical inactivity.
    We are overmedicating the next generation of Americans. And 
all the research and the data is in, and the most effective 
anti-depressant in the history of the world is sweat. The most 
effective anti-depressant in the history of the world is sweat. 
You sleep better, you produce more, you have a higher quality 
of life if you get a regular regimen of physical activity.
    There is a new book out called ``Spark.'' It identifies the 
research and the data of how much more you comprehend and learn 
if you have a regimen of physical activity in your life. For 
the good of the bottom line in education, physical activity, 
physical education must be integrated into education.
    No Child Left Behind has been controversial, but all it is 
is an extension of the Primary and Secondary Education Act. We 
are going to come back to it at some point, and when we do, we 
must bring two things back into the mix besides science, 
reading, and math.
    I would argue that our physical education and arts 
education, both of which have been squeezed out because of 
testing and mandates and the focus with limited budgets on how 
you are going to be held accountable.
    But Thomas Jefferson said almost 200 years ago, over 200 
years ago, a child who is not physically well struggles with 
learning. Thomas Jefferson said that.
    It is more true in 2008 than it is ever been. A child who 
is not physically well struggles with learning. A child who is 
chronically obese or has hypertension and high blood pressure 
has a huge problem with learning and all the research points to 
it.
    So please help us. Incentivize exercise back into public 
education. And it starts at home. Moms, dads, it starts at 
home. You control the refrigerator. You control the TV time. 
You control the computer time. You control the outside time. 
Get your kids back outside. Tell them to go out and play, run, 
burn, get tired. Come home and sleep and get up and go at it.
    And in the schoolhouse, integrate a certain amount of time 
for stretching and wellness and physical education. Bring the 
T-shirts back. Bring the competition back. Make it fun. But let 
us sweat and let us be productive, America.
    Thank you, and I yield back. [Applause.]
    Chairman Miller. Zach Wamp uses more calories testifying 
than most members of Congress burn all day. I know you have 
competing calls on your time this morning. I would just like to 
ask one question, if I might, and then, quickly, if my 
colleagues have a question.
    In your legislation, one of the things that intrigues me 
about it--and you hit upon this, Zach--is the idea that 
exercise and health education and nutritional education can, in 
fact, be incorporated in the teaching of other subjects.
    And one of the things we are looking at in No Child Left 
Behind is to try to convey this because when we look at 
successful schools, when we look at schools that are doing 
better than their peers, very often, what we see is them taking 
mathematics and incorporating it into the music course.
    We see them taking history and incorporating it into the 
reading. We see them taking their local community and using it 
as a pallet to teach kids about culture and history and get 
them engaged in those areas.
    And I don't think it takes a lot of thought to figure out 
that life sciences can be taught, that health education can be 
taught, that mathematics can be taught all around exercise.
    Some people are concerned that we want to federally mandate 
P.E. The fact of the matter is, in high capacity schools with 
talented teachers, they are able to incorporate this into the 
other subject matters. You don't have to shove one aside to do 
the other if you are really thinking creatively about it.
    And what--of course, what we are starting to see is that 
connection very often then connects student to their 
mathematics course because they now see that as a reality or 
they see the connection.
    Earlier this week, we had Phil Mickelson before the 
committee discussing mathematics. He and his wife have started 
an institute along with Exxon-Mobil to show mathematics to 
teachers .
    We played this ad that they put together which shows the 
mathematics of a golf swing, the mathematics of a sand shot, 
the mathematics of a putt. And he went through that. Last week, 
I had a chance to spend time with John Madden on John Madden 
Football and the mathematics components of one of the most 
popular video games in the country.
    And now, turning that into a teaching tool for kids--
getting them engaged through football but getting them to 
understand that you can't be smart in football in you don't 
know angles, if you don't know percentages, and all the things 
that come with it.
    For those who think that this is just another mandate, you 
ought to understand what we are saying is increase the capacity 
of the school to integrate this into the other things you are 
also doing.
    That is not to say----
    Mr. Kind. The other aspect of what you are describing, the 
integration of classroom curriculum and P.E. is making school 
more attractive to kids who we might otherwise lose and drop 
out.
    I was just in a school in western Wisconsin, not too long 
ago that integrated mathematics and an archery program, Archery 
in the Schools program. And it is not the most strenuous thing, 
but it is getting these kids up and going.
    And I was talking to a couple of high at-risk kids who are 
participating. And they said they were bored with school. They 
were sick. They didn't look forward to going to it until they 
incorporated this program in the school. And that is what was 
motivating them to go.
    And they were using mathematical skills to participate, and 
the teachers who said that they would normally have probably 
lost some kids who would have dropped out if not his hook that 
brings them back in.
    So there is a lot of creative and innovative teaching 
practices take place incorporating the physical activity that 
our kids need and surprising them because they are learning at 
the same time.
    So you are exactly right.
    Mr. Wamp. I could just add, Mr. Chairman, that this is kind 
of a holistic approach to education. And the last thing we 
wanted to do was to pit science and math teachers against 
physical education instructors because we are all in this 
together.
    And I think you have actually explained it very well in 
your question is that you can do all of the above without the 
mandates, and that is why we have been very flexible in terms 
of trying to find ways to incentivize this as opposed to 
mandating this.
    And the last thing we want to do is to turn academia 
against this effort because, frankly, it will help them, I 
think, in a major way if we incorporate this physical activity 
piece in in terms of the kind of response they are getting from 
their students.
    And we all know that. It is just figuring out exactly how 
to do it. And we very much appreciate your willingness to work 
with us on it.
    Chairman Miller. Thank you.
    I know your committees are meeting.
    Any of my colleagues here--Mr. Loebsack, did you----
    Mr. Loebsack. Thank you, Mr. Chair.
    Very briefly, I want to thank my colleagues for coming 
today. I got tired listening to Zach. I mean, it was wonderful.
    I do want to thank the other panelists on the second panel 
for being here today.
    I am someone who, 4 years ago in October, ran the Chicago 
Marathon. So far, it is the only marathon I have ever run. It 
may be the only one I ever run.
    Not long after that, then, I began to run for this office. 
And so for the last 3 years, I have had a lot of excuses not to 
engage in regular physical activity, and it is taken its toll.
    But I want to recognize Ric Keller in particular. You know, 
he was in Iraq with me in October. And those of you who have 
been overseas on these congressional delegations know how 
difficult it is to keep up a regimen when you are on one of 
those CoDels.
    He did a fantastic job. I don't how much weight he has lost 
since then, but it has been significant. And I just want to 
thank him in particular for everything that he has done for 
this.
    So thank you very much.
    That is all.
    Mr. Keller. Well, thank you very much, Dave.
    And you are right. I got up at 4:30 in the morning in the 
middle of a Middle Eastern country and, without any security, 
jogged down the streets to make sure I did my daily run. I got 
in a little trouble from my wife, again, afterwards for that. 
But thank you.
    I have two questions, and I will direct them to both 
members and then give me your feedback on both of them.
    The first thing is you guys are going into the public 
schools all the time and talk to the actual students. My 
question is do you get a sense from the kids that they want the 
P.E. and they want more activity?
    The reason I ask that, because I was in the Hillcrest 
Elementary School, and this very creative P.E. teacher said I 
am going to create a new program; it is a runner's club. Every 
Friday, on your own time, we are going to get together and run. 
There is only 90 slots, and it filled up the first week.
    Every Friday, 90 kids show up on their own time, from 
kindergarteners to fifth grade, and they all run a mile. And 
some it takes longer than others, but they were hungry for it. 
And I just want a sense of what you get from talking to kids.
    And secondly, I notice that some states, I think, Illinois, 
have P.E. K through 12. Other states like Florida, we have it 
elementary and middle.
    If you are faced with limited resources, do you have an 
opinion about where it is most important to put the P.E.? Is it 
elementary? Middle? High school? Or is it all of the above?
    I will throw both of those to both of you all.
    Mr. Kind. I will answer the second one first, Ric.
    I think it is--the obvious answer is all the above.
    What we saw with the recent study is how physical activity 
has just dropped off the cliff once kids reach their teen 
years. When they are younger, they are--I think, kids are 
naturally inclined and they are wired to be active. We have got 
that going for ourselves already.
    But it is easy for them to slip in the sedentary 
lifestyles. A lot of that is because of the culture around them 
and the environment that we are creating for them.
    And now we are seeing a very disturbing trend of how it is 
just dropping off the cliff as soon as they hit 13, 14, 15 
years old. And we are seeing that in high schools now where 
close to 45 percent of the high schools 10 years ago were 
offering an enriched P.E. course, today that is down to--what 
is it?--28 percent or so.
    Just a tremendous drop in just offering physical education 
at the high school level.
    But Zach is right. I mean, all of us have a role to play in 
this including the parents. As powerful is technology is, we 
have to have the ability to unplug our children, too, and get 
them away from the TV and the X Boxes, the computers and get 
them outside so they are running around and using their 
creative minds and innovation, too.
    So I think we have got genetics working in our favor, but 
if we can create the right environment, we are going to be able 
to tap in to kids' natural inclination to be active and to be 
healthier and happier as a consequence.
    Mr. Wamp. Congressman Keller, the unfortunate outcome is 
that at the primary and secondary level, less than 10 percent 
of the schools in the country right now meet an acceptable 
amount of physical activity in the classroom or in the school 
day.
    That is way, way down.
    And that has to turn around, and the states are taking the 
initiative. My home state has taken the initiative in the last 
2 years of having a certain number of minutes for stretching 
and physical activity, and that is good that the states are 
leading.
    But as we look at a federal framework, we need to have 
incentives built in as well.
    Back to what the students are thinking, I have had both 
responses. I have had resistance, and I have had encouragement 
from the students and the teachers in a whole lot of schools.
    But I got to say this because this is real important to 
getting this started. There is an axiom that is taught to our 
kids that is really, really unfortunate. You teach them 
``sticks and stones can break your bones but words will never 
hurt you,'' and nothing could be further than the truth.
    And I tell young people everywhere I go never use the F 
word, ever, ever. If a child is larger than you, encourage them 
to adjust the dial. The dial needs to be set no matter how God 
made you, big, small, wide, thin. Adjust the dial and encourage 
every child to take two steps in the right direction. For some, 
it may literally be a short walk. For others, it may be a 
marathon.
    But it is an encouragement for every child. So it is so 
important that when we start this, we start it that every 
child--the concept of No Child Left Behind--every child can 
take steps in the right direction.
    Congressman Keller, you understand this well yourself.
    So for goodness sakes, the children need to encourage and 
lift each other up. Words can bring down nations let alone 
people. And the wrong thing said is as painful and as 
unfortunate as the total opposite where the right word of 
encouragement can change a person's life.
    That is how important this is, Mr. Chairman.
    So we have got to get out there in the schools and say this 
is not about setting up these children; it is about everybody 
moving in a better direction. All ships----
    [The statement of Mr. Wamp follows:]

Prepared Statement of Hon. Zach Wamp, a Representative in Congress From 
                         the State of Tennessee

    Chairman Miller, Ranking Member McKeon, and Members of the 
Committee, thank you for giving me the opportunity to testify at this 
important hearing on improving physical education and the health of our 
nation's children.
    Nearly six years ago, I founded the Congressional Fitness Caucus, 
which is a bipartisan group of more than eighty Members of Congress 
dedicated to increasing awareness about the danger of obesity and 
promoting the benefits of physical activity to overall health and 
wellness. I am proud to be here with Congressman Ron Kind, co-chair of 
the Congressional Fitness Caucus, to advocate for these vital causes.
    It was Thomas Jefferson that said, ``A child who is not physically 
well cannot learn.'' His words could not be more true today, as 
childhood obesity in the United States reaches epidemic proportions, 
jeopardizing not only the health of our kids, but also their academic 
development.
    The Department of Health and Human Services estimates that by 2010, 
20 percent of children in the United States will be obese. A decline in 
physical activity has been a significant factor in the unprecedented 
rise in childhood obesity. A troubling consequence of obesity is the 
growing number of children experiencing illnesses and other health 
problems, such as Type II diabetes, hypertension, coronary heart 
disease, stroke, respiratory problems, and some cancers.
    The rise in obesity-related health conditions also has high 
economic costs and has greatly increased health care spending. Our 
nation is already spending nearly $100 billion a year on obesity 
related health care costs. If we don't change our lifestyles, our 
Medicare and Medicaid systems will be overwhelmed. The most effective 
and practical way to combat rising healthcare costs is for people to 
get healthy by engaging in physical activity.
    Despite these staggering social and economic costs, many schools 
are cutting back on physical education and health education programs 
because of budgetary concerns and the demand for stronger academic 
standards in math, reading, and science. In fact, between 1991 and 
2003, enrollment of high school students in daily physical education 
classes decreased from 42 percent to 28 percent.
    In addition to reducing childhood obesity, many studies have shown 
that regular physical activity strengthens academic performance and 
improves overall physical and emotional health of children and teens. 
The research is complete and, despite the fact that our society is 
overmedicating our children in many ways, the most effective anti-
depressant in the history of the world is sweat! We must work to become 
a nation that exercises more because the human body was made to move. 
The more children we can encourage to have a regime of physical 
activity in their lives and take better care of themselves, the better 
off we will be as a society.
    By the fourth grade, every child should know there are adverse 
consequences to a sedentary lifestyle. In doing so, we will also see 
the benefits in their math and reading test scores, get to the cause of 
the obesity epidemic, and encourage children to lead a healthy life.
    In order to strengthen physical education in our nation's schools 
and address the childhood obesity epidemic, I am an original cosponsor 
of the Fitness Integrated with Teaching (FIT) Kids Act, H.R. 3257. This 
bill would engage parents and the public by asking all schools, 
districts, and states to report on students' physical activity, and 
would help faculty and staff learn new ways to promote kids' healthy 
lifestyles and physical activity through professional development 
opportunities. The bill would also authorize a study and pilot program 
to support effective ways to combat childhood obesity and improve 
healthy living and physical activity for all children.
    The FIT Kids Act is a bipartisan bill and has the support of more 
than forty combined health, education, and physical activity 
organizations. This legislation is critical to strengthen physical 
education, which will improve academic performance and provide students 
with the physical activity and education to lead healthy lifestyles. By 
taking action and important steps to increase physical activity and 
reduce obesity amongst our youth, we can improve academic performance, 
decrease medical costs, and save lives.
    Thank you again for your dedication and support of the cause of 
improving the health of our children and I look forward to working with 
you as we move forward to improve physical education in our nation's 
schools.
                                 ______
                                 
    Chairman Miller. Thank you for your passion, for your 
support of the legislation, for your testimony this morning. 
[Applause.]
    We will now go to our second panel. If they would come 
forward and take their seats, please. I will take a moment to 
introduce the panel to the committee.
    First is Richard Simmons, who needs little introduction, 
but is a national leading fitness expert and advocate who has 
helped millions of overweight men and women lose close to 3 
million pounds by adopting sensible, balanced eating programs 
and exercise regimens that are energetic, fun, and motivating.
    Mr. Simmons has prevailed over his own weight problems as a 
child and has helped tailor fitness workouts for all Americans 
including the physically challenged and older Americans.
    Much of the nation has been on hurricane watch for where 
Hurricane Dolly was going. We have been hearing that Richard is 
coming, Richard is coming, Richard is coming. And here he is.
    Our next witness will be Dr. Russell Pate, who is the 
associate vice president for health sciences and professor at 
the Arnold School of Public Health at the University of South 
Carolina.
    Dr. Pate is an expert in health implications of physical 
activity and youth physical activity. Dr. Pate currently serves 
on the Physical Activity Guidelines Advisory Committee within 
the U.S. Department of Health and Human Services.
    Lori Rose Benson is the director of Office of Fitness and 
Health Education with the New York City Department of 
Education. Ms. Benson has spearheaded and introduced a fitness 
gram, the city's first health-related fitness curriculum and 
web-based application that allows for the collection of health-
related fitness assessment data on all 1.1 million public 
school students in the city.
    Ms. Benson has also helped develop an innovative citywide 
middle school reports and fitness programs that has grown into 
a thousand programs in more than 200 middle schools.
    Robert--you are going to introduce Robert, right? 
Congressman Keller is going to make the next introduction of 
Mr. Keiser.
    Mr. Keller. Well, thank you, Chairman Miller.
    I appreciate the opportunity to introduce our next witness 
from my home state. Robert recently graduated from the Pine 
Crest School in Fort Lauderdale, Florida and will be a freshman 
at George Washington University this fall majoring in political 
science.
    He has been successful both as a student as an athlete. 
Personal experiences have reinforced Robert's strong interest 
and belief in public service and government. From a child who 
struggled with his weight to a determined community advocate, 
paving the way to a better future for you, Robert is helping 
others achieve their goals and dreams through legislative and 
community advocacy.
    In 2007, Robert founded Florida's first Legislative 
Advisory Teen Council under the Broward Days Organization. In 
June of 2007, as a result of Robert's leadership of the teen 
council, he was appointed by Governor Charlie Crist to serve as 
the only youth member of the Governor's Council on Physical 
Fitness.
    Robert has testified before the Florida Legislature. He is 
now testifying before Congress. And I wouldn't be surprised if 
it is not too long before he is on the other side of this panel 
asking some questions.
    We are pleased to have you with us, Robert, and look 
forward to your testimony.
    Chairman Miller. Thank you for being here, and I would also 
add that he is, I think, the third generation in his family 
that has been deeply involved in the education of young people 
in this country.
    Tim Brown is a former Oakland Raider wide receiver. He is a 
nine-time NFL pro-bowler and ranks second in all-time receiving 
yards and third in all-time receptions. At the University of 
Notre Dame, he received the Heisman Trophy. And among his many 
contributions off the field, he is the national chair of 
Athletes and Entertainers for Kids, an organization that has 
helped over 5 million children and teens through mentoring and 
re-education programs.
    And I would say aside, as a personal note, he has been 
before this committee before, but he is on the receiving end of 
so many requests for his time, his expertise, his fame, his 
reputation to help kids, and he never says no.
    He is just a remarkable, remarkable athlete and a 
remarkable citizen of our community. And thank you once again 
for responding to the call to participate.
    Welcome to all of the witnesses.
    Richard, you are more comfortable standing. If you are more 
comfortable, I would be glad to relinquish this seat to you. 
You are welcome to come up here.
    Whatever----
    [Laughter.]
    You are out, Richard. [Laughter.]
    Let me say to the panelists, when you begin speaking, a 
green light will go on in the small monitors in front of you. 
We allow 5 minutes for your testimony, but we want you to be 
able to complete your thoughts in a coherent fashion.
    An orange light will go on when you have 1 minute 
remaining, and that is an indication that you can begin 
wrapping up your testimony.
    And we look forward to your testimony.
    And, again, Richard, thank you very much for joining the 
committee. And thank you for all of the time you have spent to 
try to get people to understand and to participate in avoiding 
all of the detrimental health effects of obesity and lack of 
conditioning.
    Welcome to the committee.

   STATEMENT OF RICHARD SIMMONS, FITNESS EXPERT AND ADVOCATE

    Mr. Simmons. Good morning, ladies and gentlemen. My name is 
Richard Simmons, and I never took a P.E. class in my life.
    I was overweight. I was short. I was lethargic.
    It wasn't on before? Can I start over? [Laughter.]
    Chairman Miller. Take two. [Laughter.]
    Mr. Simmons. Good morning, ladies and gentlemen. My name is 
Richard Simmons, and I never took a P.E. class in my life.
    I was overweight, a little lethargic, a little short.
    At St. Louis Cathedral School in New Orleans, it was all 
sports. And I was not a jock. I spent my elementary school, my 
high school, and my college sitting on the benches watching 
everyone play sports.
    And to get back at them, while they were playing sports, I 
ate their lunch. [Laughter.]
    I was 268 pounds. I tried a lot of ways to lose weight, 
including taking laxatives, throwing up, starving, because I 
never took P.E. I was 23 years old. When I took my first 
exercise class, I was bitten by the sweat bug.
    Twenty-five years ago, I opened up--excuse me--36 years 
ago, I opened my exercise studio up in Los Angeles, and there I 
began my pilgrimage to help people overweight, out of shape, 
200 pounds, 400 pounds, 800 pounds.
    And I have dedicated all these years to giving them some 
support and some self-esteem.
    Five years ago, my mail shifted dramatically. I get 
thousands of e-mails a day. But when the No Child Left Behind 
Act came about, I got lots of letters from parents and children 
saying my kid is overweight. My kid is going to the doctors. My 
kid has high cholesterol.
    So what I did was I went to shows like the ``Today Show,'' 
``Ellen,'' ``David Letterman,'' ``Howard Stern,'' and I put a 
four-page questionnaire on Richard Simmons.com, and 60,000 
people filled out that questionnaire.
    And I learned what was happening in the schools in the 
United States of America.
    I took a trip to Washington to meet Congressman Wamp and 
Congressman Kind. I told them my ideas. I began another 
campaign on my Web site asking people to write their 
congressmen and presidential candidates in order to let 
everyone know how important this is.
    And here I stand with a vision today.
    Everyone is not a jock. Everyone cannot play sports. 
Everyone cannot run. But everyone can be fit. It is not 
important if you are a jock. It is important that you have your 
health.
    And your children right now do not have it.
    I have a vision.
    I know of a very economical way to bring fitness to every 
child in every school in the United States of America. There 
are hundreds of thousands of certified fitness instructors who 
travel around and teach classes. I want to head and be part of 
this committee to train teachers to go into the school system 
and teach the three things that we all need.
    We all need cardio. We all need strength training. And we 
all need stretching. Every school that I have been in, I put 
the kids' music on. I get them going. They feel great.
    And as Congressman Wamp and Congressman Kind said, when you 
are feeling great about yourself, when you have self-esteem and 
self-respect for yourself, there is nothing you can't do.
    I am not 268 pounds any more, and I am still not a jock. 
But I am fit. And I have dedicated my life to this. And I am 
hoping that the committee today will know there is no other way 
to do this. Our children will get more sick.
    And there is a statistic that says our children today will 
not live as long as their parents. What have we done? What have 
we done to the kids of the United States of America?
    This is wrong.
    And I will dedicate the rest of my life and, Chairperson 
George Miller, I just may run for office to help this really 
get through and not have one kid feel lousy about himself 
because he can't throw a ball.
    One kid who cannot run a mile, he cannot be made fun of. We 
have to support him and what he can do.
    Every child can dance. Every child can dance. I have seen 
it.
    I travel 200 days a year, and I see what happens when the 
music goes on--their music, not mine--when the music goes on, 
they feel so good about themselves they go back in that school 
room and they learn.
    I do not want any child in America to have my childhood 
because it was taken away from me because I just wasn't good 
enough. Well, I am good enough now, and I have devoted--I am 60 
years old now. And I have devoted my life to this, and I will 
devote my life to this to the day I die.
    And I hope that one day every kid gets to feel the self-
esteem and self-respect that I have.
    God bless you all, and God bless the children of America.
    Thank you very much. [Applause.]
    [The statement of Mr. Simmons follows:]

           Prepared Statement of Richard Simmons, ASK America

1. History
    My own personal ``exercise'' life story, a summary of how a child 
who loathed exercise transformed in to a fitness legend.
2. A ``Shift'' in Mail
    Five years ago, I began to notice a real change in the mail I was 
receiving. More and more letters were coming from parents concerned 
with their child's weight, state of health and most unusual, their 
stress levels. There were even letters from children themselves. The 
letters primarily voiced concerns over the lack of, or dramatic cuts in 
PE classes as a result of the implementation of the No Child Left 
Behind Law. The parents were now seeing their children gaining weight, 
becoming diabetic, showing signs of high blood pressure, anxiety and 
depression * * * children!
3. Questionnaire
    I decided to investigate what was happening for myself. My team and 
I created a survey to literally ``Ask America'' all about the state of 
Physical Education in their neighborhoods. I hit the airways and asked 
America to tell me their story.
    --60,000 people answered the call, and they had a lot to say
    --94% of survey respondents believed that PE should be a required 
subject at ALL levels of Education.
    --Almost 40% of survey respondents reported their children as 
having PE Class ONE time per week OR LESS.
    --90% of survey respondents reported feeling that PE would be more 
EFFECTIVE and ENJOYABLE if it included all children, regardless of 
athletic ability, in a non-competitive atmosphere.
4. Trip to Washington
    In February of 2007, Congressman Zach Wamp and Congressman Ron Kind 
invited me to Washington D.C. We discussed how I could use my public 
voice to help bring these issues to the public's and Leaders' 
attention. I set to work on advocating for a PE Bill that ultimately 
became the Fit Kids Act.
5. Letter Writing Campaign
    After my trip to Washington, I again asked my friends in the media 
for help. I did as many media appearances as I could, asking everyone 
to write to their Congressmen, Senators, and even the Presidential 
Candidates, in support of Fit Kids and primarily PE.
    The response was overwhelming. People telling people, telling 
people all about our ``crusade''. Everywhere I went, in airports, in 
shopping malls, on the street, people were stopping and thanking me for 
doing something for our kids, for the future.
6. Vision
    I certainly don't have all the answers to the tough questions, but 
I'm not empty-handed either. I come today with a vision.
    I am well aware that many of our teachers are working under 
stressful conditions. I am also aware that time and funding are serious 
issues that must be addressed to solve this PE crisis.
    However, I know that fit kids are healthier and appear to learn 
better.
    Therefore, I would like to propose utilizing the talents of the 
community, specifically certified fitness instructors, to work under 
the direct supervision of certified PE Teachers, so as to alleviate 
some of this stress.
    Congressmen, and Congresswomen, thank you for inviting me here 
today and listening. It breaks my heart that we presently have a 
generation of children, in real danger of not living as long as their 
parents. You have the power to prevent this from happening. I believe 
that it doesn't have to.
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Pate?

STATEMENT OF RUSSELL PATE, ASSOCIATE VICE PRESIDENT FOR HEALTH 
    SCIENCES AND PROFESSOR, ARNOLD SCHOOL OF PUBLIC HEALTH, 
                  UNIVERSITY OF SOUTH CAROLINA

    Mr. Pate. Committee, I have followed some tough acts in my 
day, but this is a tough one.
    My name is Russ Pate, and I am an exercise physiologist at 
the University of South Carolina.
    I am also a volunteer for the American Heart Association. I 
have authored several American Heart Association scientific 
statements, and I am currently on the Department of Health and 
Human Services Physical Activity Guidelines Advisory Committee 
having been nominated to serve in that capacity by the American 
Heart.
    Today, I thank you very much for inviting me to testify on 
the benefits of physical education and health education for our 
nation's children. And I am thrilled, absolutely thrilled to be 
here today. And I hope that my remarks will help in the 
consideration of innovative ways to promote physical activity 
within our nation's schools and, ultimately, to prevent 
childhood obesity.
    The childhood obesity crisis in the United States cannot be 
overstated. As others have mentioned this morning, more than 9 
million American children and adolescents are overweight and 
the Department of Health and Human Services estimates that by 
2010, one in five children in the U.S. will be obese.
    Unfortunately, it is well documented that overweight 
adolescents have a 70 percent chance of becoming overweight or 
obese adults. Obesity and physical inactivity are major risk 
factors for cardiovascular disease, some cancers, Type 2 
diabetes, and early death.
    We are already seeing diseases like Type 2 diabetes, which 
we used to refer to as adult onset diabetes, and elevated 
cholesterol in children that in previous generations were 
observed only in older persons. The epidemic is so severe that 
some experts have predicted that this generation of America's 
children may be the first to have shorter life spans than their 
parents. And I will say that that is a terribly depressing 
thought.
    The decline in physical activity, in combination with 
adverse dietary trends is one of the most significant 
contributors to obesity and overweight among our children and 
youth.
    Recent findings from the National Institute of Child Health 
and Human Development confirm that physical activity levels 
decline as children approach adolescence, and I will add that 
my own research group recently observed a large national sample 
of middle school girls using objective measurements of physical 
activity, and found that on average those girls were engaged in 
about 22 to 23 minutes of moderate to vigorous physical 
activity today, and almost none of them met a 60-minute target 
for daily physical activity.
    The Texas Education Agency also recently reported that as 
children in Texas moved from elementary to high school, their 
physical levels dropped substantially.
    The data clearly show that many kids are living an inactive 
lifestyle, spending more time in front of the computer and TV, 
that their neighborhoods are less walkable, that they have less 
down time to pursue fitness-related activities, and that 
physical education and physical activity opportunities in the 
schools are reduced.
    You all recognize that the world that our children are 
growing up in today is just very different than the world we 
grew up in with regard to opportunities and requirements for 
physical activity.
    To stem the rise in obesity, it is imperative that children 
and youth become physically active during the school day. 
Children are to get 60 minutes of physical activity daily. It 
is hard to imagine how they will meet that target if they are 
not physically active at a reasonable level during the school 
day.
    Children and youth spend more time in school than any other 
setting except their homes. In the past, schools played a 
central role in providing physical activity. P.E. has been an 
institution in American schools since the late 1800s, and 
school sports have been a growing component of the educational 
enterprise since the early 1900s.
    In addition, children have engaged in physical activity 
during recess breaks during the school day and by walking or 
riding bikes to and from school.
    The dietary guidelines for Americans--the American Heart 
Association recommends that children engage in physical 
activity for at least 1 hour on most days of the week. And a 
recently-released report of the Department of Health and Human 
Services Physical Activity Guidelines Advisory Committee 
concluded that participation in 60 minutes of physical activity 
per day provides very important health benefits to children and 
adolescents.
    The AHA has been joined by the Centers for Disease Control 
and Prevention, the National Association for Sports and 
Physical Education, and a number of other leading authorities 
in recommending that elementary school students receive 150 
minutes of physical education per week and that middle and high 
school students receive 225 minutes per week.
    However, the most recent school health policies and 
programs study, recent in 2006, found that only 3.8 percent of 
elementary, 7.9 percent of middle, and 2.1 percent of high 
schools are meeting those standards.
    More than one in five schools do not require students to 
take physical education at all. Additionally, only 45 percent 
of schools offer opportunities for students to participate in 
intramural activities or physical activity clubs.
    Only one-third of trips to school under one mile in 
distance and less than 3 percent of trips under two miles in 
distance are made by walking or biking.
    Even recess has been reduced or eliminated in some 
elementary schools. Reducing physical education and physical 
activity during the school day may actually undermine a 
school's ability to meet academic standards.
    A new field of research is providing very encouraging 
evidence that physical activity may help with brain function 
and development. And other recent studies have found a positive 
correlation between aerobic fitness and academic performance.
    Also, it is true that normal weight children have lower 
rates of school absenteeism than overweight kids.
    Schools are uniquely positioned to address childhood 
obesity and should be encouraged to ensure that kids are active 
during the school day. This is why the American Heart 
Association supports the Fit Kids Act.
    It is, in my view, critical that our schools be held 
accountable for delivery of high-quality physical education 
programs and for provision of healthy school environments.
    Further, it is critical that parents be informed regarding 
the status of their children's schools in these important 
areas. I believe the Fit Kids Act will help ensure that those 
outcomes result.
    I thank you very much again for inviting me to testify 
today. When the time comes, I will be delighted to respond to 
questions.
    Thank you.
    [The statement of Mr. Pate follows:]

 Prepared Statement of Dr. Russell Pate, Associate Vice President for 
  Health Sciences, Professor, Department of Exercise Science, Arnold 
         School of Public Health, University of South Carolina

    Chairman Miller, Ranking Member McKeon and Members of the Committee 
on Education and Labor, my name is Russell Pate and I am an exercise 
physiologist at the University of South Carolina. My research focuses 
on physical activity and physical fitness in children, and the health 
implications of physical activity. I am also a volunteer for the 
American Heart Association (AHA), I have authored several AHA 
scientific statements and I am currently on the Department of Health 
and Human Services' Physical Activity Guidelines Advisory Committee 
having been nominated by the AHA. I want to thank you for inviting me 
to testify before the Committee today on ``The Benefits of Physical 
Education and Health Education for Our Nation's Children'' and I hope 
that my remarks will help in the consideration of new and innovative 
ways to address childhood obesity and physical activity within our 
nation's schools.
The childhood obesity epidemic and physical inactivity
    The childhood obesity crisis in the United States cannot be 
overstated. More than 9 million American children and adolescents are 
overweight and the Department of Health and Human Services estimates 
that by 2010 one in five children in the U.S. will be obese.\1,2\ 
Unfortunately, overweight adolescents have a 70% chance of becoming 
overweight or obese adults.\3\ Although recent data from the National 
Health and Nutrition Examination Survey showed that U.S. childhood 
obesity rates may be leveling off, it is still alarming that nearly 32 
percent of children are considered overweight, nearly 16 percent are 
considered obese, and approximately 11 percent are considered extremely 
obese.\4\ It is premature to celebrate a possible plateau since we need 
further confirmation of these data. Moreover, childhood obesity rates 
remain more than triple the rates recorded in the 1960s and 1970s, and 
are of particular concern among children in racial and ethnic 
minorities.\5\
    Obesity is not just about fat and appearance. It is a major risk 
factor for cardiovascular disease, cancer, diabetes, and early death. 
We are already seeing diseases like diabetes and high cholesterol in 
children that in previous generations were only observed in adults. The 
epidemic is so severe that some experts predict that this generation of 
America's children may be the first to have shorter lives than their 
parents. We must not--we cannot let that happen. We owe it to our 
children to take action.
    The decline in physical activity, in combination with adverse 
dietary trends, is one of the most significant contributors to obesity 
among our children and youth. Recent findings from the National 
Institute of Child Health and Human Development Study of Early Child 
Care and Youth Development confirmed that physical activity levels 
decline as children approach adolescence. At the age of 9, children 
engaged in moderate-vigorous physical activity approximately 3 hours 
per day on both weekends and weekdays but, by age 15, they were only 
engaging in moderate-vigorous physical activity for 49 minutes on week 
days and 35 minutes on weekend days.\6\
    The Texas Education Agency also recently reported that as children 
in Texas moved from elementary to high school, their fitness levels 
slipped significantly. Texas used data collected by Fitnessgram 
assessments in the state's schools. Fitnessgram is a youth fitness 
testing protocol and data were aggregated from all Texas school 
districts on students' body mass, aerobic capacity, strength, endurance 
and flexibility. The report found that 32 percent of third-grade girls 
and 28 percent of third-grade boys reached the ``Healthy Fitness 
Zone,'' meaning that they exhibited competency across all six fitness 
tests. By seventh grade, the percentage of students achieving the 
healthy zone fell to 21 percent of girls and 17 percent of boys; it 
slipped even further by 12th grade to just 8 percent of girls and 9 
percent of boys.\7\ The data clearly show that many kids are living a 
sedentary lifestyle as they spend more time in front of computer, 
television, and other screens, their neighborhoods are less walkable, 
they have less ``down time'' to pursue fitness-related activities, and 
physical education and physical activity opportunities are reduced in 
our nation's schools.
School leadership in promoting physical activity
    Children and youth spend more time in schools than any other 
setting except their homes. To stem the rise in obesity, it is 
imperative that children and youth become physically active during the 
school day. In the past, schools played a central role in providing 
physical activity. Physical education (PE) has been an institution in 
American schools since the late 1800s, and school sports have been a 
growing component of the educational enterprise since the early 1900s. 
In addition, students engaged in physical activity during recess breaks 
in the school day and by walking or riding bicycles to and from school.
    The Dietary Guidelines for Americans and the AHA recommend that 
children engage in physical activity for at least an hour most days of 
the week. The AHA is joined by the Centers for Disease Control and 
Prevention, the National Association for Sports and Physical Education 
and other leading authorities in recommending that elementary school 
students receive 150 minutes of PE per week and that middle and high 
school students receive 225 minutes per week. Yet the most recent 
School Health Policies and Programs Study (2006) found that only 3.8 
percent of elementary, 7.9 percent of middle, and 2.1 percent of high 
schools are meeting this standard. More than one in five schools do not 
require students to take any physical education at all.
    The decline in physical education in schools over the last few 
decades has been precipitous. Additionally, only 45% of schools offered 
opportunities for students to participate in intramural activities or 
physical activity clubs.\8\ Only one third of trips to school under one 
mile, and less than three percent of trips under two miles are made by 
walking or biking. Even recess has been reduced or eliminated in some 
elementary schools.\9\
    The reduction in physical education in schools has occurred for a 
variety of reasons, including budget constraints, lack of availability 
of outdoor space and adequate facilities, and an increased emphasis on 
meeting academic objectives such as the No Child Left Behind Act 
(NCLB). Instructional time for physical education as part of total 
instructional time during the school day has dropped by 35% since NCLB 
enactment, although there are likely many reasons for the decline.\10\ 
But ironically, reducing physical education and physical activity 
during the school day may actually undermine a schools ability to meet 
academic standards. A new field of research is providing encouraging 
evidence that physical activity may help with brain function and 
activity, and other recent studies have found a positive correlation 
between aerobic fitness and academic performance.\11,12,13\ Normal-
weight children also have lower rates of school absenteeism than obese 
children and may also have reduced rates of tobacco use, insomnia, 
depression, and anxiety.\14\
    There are many opportunities--in addition to the traditional PE 
curriculum--for schools to encourage students to be active before, 
during and after school. For example, schools can promote walking and 
biking to and from school; link to community outdoor recreational 
opportunities, integrate technology into physical activity 
opportunities, partner with families to promote physical activity at 
home, provide recess for young children; and promote the creation of 
clubs, intramural sports, and interscholastic sports programs that meet 
the physical activity needs and interests of all students. Some schools 
are even allowing students to burn off calories in the classroom using 
innovative programs that have been designed to incorporate physical 
activity into the delivery of the academic curriculum.
The American Heart Association supports the FIT Kids Act
    Although parents, community agencies and healthcare providers share 
the responsibility for ensuring that young people are physically 
active, schools are uniquely positioned to address this critical public 
health concern. In order for children to obtain adequate amounts of 
physical activity, schools must be more aggressive in providing these 
opportunities. However, we also know that schools face multiple 
challenges, and there is no ``one size fits all'' solution. That's why 
the AHA, the National Association for Sport and Physical Education, the 
Afterschool Alliance, Blue Cross Blue Shield, First Focus, and many 
other organizations support the Fitness Integrated into Teaching Kids 
Act, or FIT Kids Act. This important legislation, which has been 
introduced in the House by Representatives Ron Kind, Zach Wamp and Jay 
Inslee and by Senator Harkin in the Senate, would require schools to 
report to parents on the quantity and quality of physical education 
that children receive during the school year, as part of the reporting 
that is currently required on other elements of school performance.
    Information is power. When parents know how active their children 
are during the school day, they can use that information to determine 
whether they need to work more closely with their schools to increase 
physical education or recess; support the development of after-school 
programs that provide opportunities for physical activity; or adjust 
their own children's schedule outside of school to incorporate more 
time for exercise and play. Each school and community can create a 
physical activity blueprint for success to keep their children--our 
children--healthy and fit for life.
    The legislation also has other provisions aimed at ensuring that 
children and parents can obtain the information and support they need 
to live a healthy life. It supports professional development to help 
all teachers convey this information effectively, and funds more 
research into effective ways to combat childhood obesity in the school 
environment.
    I want to close by thanking you again for inviting me to testify 
before the Committee today and for the opportunity to voice the AHA's 
strong support for the FIT Kids Act. I would be pleased to answer any 
questions you may have.
                               references
    \1\ Kaplan, JP. Et al. Progress in Preventing Childhood Obesity: 
How do we Measure Up? Institute of Medicine. Washington, DC. Naitonal 
Academies Press. 2007.
    \2\ Wang Y, Beydoun MA. The obesity epidemic in the U.S.--gender, 
age, socioeconomic, racial/ethnic, and geographic characteristics: a 
systematic review & meta-regression analysis. Epidemiologic Reviews 
2007; 29:6-28.
    \3\ The Department of Health and Human Services. The Surgeon 
General's Call to Action to Prevent and Decrease Overweight and 
Obesity. Accessed online at http://www.surgeongeneral.gov/topics/
obesity/calltoaction/fact--adolescents.htm on July 21, 2008.
    \4\ Ogden CL. Carroll MD. Flegal KM. High body mass index for age 
among US children and adolescents, 2003-2006. JAMA. 2008; 299(20): 
2401-2405.
    \5\ Kumanyika SK et al. Population-based prevention of obesity. The 
need for comprehensive promotion of healthful eating, physical 
activity, and energy balance. Circulation. Published online June 30, 
2008.
    \6\ Nader PR. Bradley RH. Houts RM. McRitchie SL. O'Brien M. 
Moderate-to-vigorous physical activity from ages 9 to 15 years. JAMA. 
2008;300(3):295-305.
    \7\ Texas Education Agency. Division of Health and Safety. 
Aggregated fitness assessment data by district. accessed online at: 
http://www.tea.state.tx.us/health/PFAI.html. July 20, 2008.
    \8\ Centers for Disease Control and Prevention. SHPPS: School 
Health Policies and Program Study. 2006. Accessed online at http://
www.cdc.gov/HealthyYouth/shpps/index.htm on July 20, 2008.
    \9\ Pate RR et al. Promoting physical activity in children and 
youth: a leadership role for schools: a scientific statement from the 
American Heart Association Council on Nutrition, Physical Activity and 
Metabolism in collaboration with the Councils on Cardiovascular Disease 
in the Young and Cardiovasculary Nursing. Circulation. 2006; 114:1214-
1224.
    \10\ McMurrer J. Instructional Time in Elementary Schools: A Closer 
Look at Changes for Specific Subjects. Washington, DC: Center on 
Education Policy, 2008.
    \11\ Coe DP, et. al. Effect of physical education and activity 
levels on academic achievement in children. Medicine & Science in 
Sports & Exercise 2006;38:1515-1519.
    \12\ Castelli DM, et. al. Physical fitness and academic achievement 
in third- and fifth-grade students. Journ Sport & Exer Physiol 2007; 
29:239-252.
    \13\ Carlson SA, et al. Physical education and academic achievement 
in elementary school: data from the early childhood longitudinal study. 
American Journal of Public Health. Apr 2008; 98: 721--727.
    \14\ Suitor CW. Kraak VI. Adequacy of Evidence for Physical 
Activity Guidelines Development: Workshop Summary. Institute of 
Medicine. Washington, DC. National Academies Press. 2007.
                                 ______
                                 
    Chairman Miller. Thank you. [Applause.]
    Ms. Benson?

STATEMENT OF LORI ROSE BENSON, DIRECTOR OF FITNESS AND PHYSICAL 
        EDUCATION, NEW YORK CITY DEPARTMENT OF EDUCATION

    Ms. Benson. Good morning, Chairman Miller and members of 
the Committee on Education and Labor.
    I am Lori Rose Benson. I am the director of fitness and 
health education for the New York City Department of Education.
    From my experience in helping meet the fitness and health 
challenges of the 1.1 million students in New York City, I have 
three key messages that I hope will inform your thinking and 
your work.
    First, there is no magic formula for ending this national 
childhood obesity epidemic, but we must address this issue 
immediately, vigorously, and comprehensively.
    Second, schools can absolutely play an important role in 
shaping students' fitness, but that is not the only place. We 
have family refrigerators that are packed are high-caloric 
foods. We have well-worn couches opposite TVs. And we have a 
lack of community fitness opportunities, a lack of community 
facilities for families to engage in quality physical activity 
together.
    Third, we must create and nurture a culture of fitness in 
schools that can include but definitely is not limited to 
athletics and traditional sports. And it must--it must have 
clear accountability standards tied to appropriate assessments.
    Last week, my bosses, Mayor Michael Bloomberg and Schools 
Chancellor Joel Klein, appeared before this committee to 
highlight the successes of New York City's Children First 
Reforms.
    The Children First Reform is focused on closing our city's 
student achievement gap, as you heard, but they also tackle the 
tough issues on physical education and its relationship to 
student health and academic performance. Under the mayor and 
chancellor's leadership, we are making great strides towards 
quality fitness and health education for every student, male or 
female, able-bodied or physically challenged, sports fanatic or 
couch potato.
    My office is helping schools provide students with the 
knowledge, skills, and increased opportunities for moderate to 
vigorous physical activity that are essential for fitness.
    While there is no silver bullet, there are programs and 
strategies that can be part of the solution. National health 
standards tell us that children need 60 minutes of moderate to 
vigorous physical activity every day.
    And I encourage schools to look at not only the required 
physical education class time but opportunities before and 
after the school day and physical activity opportunities within 
the classroom environment.
    Movement in classrooms is an exciting development in school 
fitness. In New York City, we have trained 1200 classroom 
teachers from 80 elementary schools using the Nike ``Let Me 
Play'' curriculum.
    And this is where regular classroom teachers are leading 
their students in fitness activities that compliment but do not 
supplant core academic instruction. You know, we are showing 
teachers that physical activity helps students get ready to 
learn but, more importantly or as important, it also teaches 
that life-long fitness habits are essential for good health.
    We also introduced the ``Physical Best'' curriculum. That 
is a program by NASPE, the National Association for Sport and 
Physical Education, for our physical education classes.
    And this is a shift. This is a shifting towards health-
related fitness. It is really about empowering students to take 
responsibility for their own fitness levels so that they can 
try lots of different activities that they can enjoy and then 
experience beyond the walls of the classroom, beyond the walls 
of the school environment.
    We support that curriculum with hundreds of free 
professional development opportunities for teachers and school 
administrators because creating school buy-in, you know, 
creating this culture of fitness is way beyond what we think of 
as a traditional gym class. And I don't use that word lightly.
    Just as there is no magic formula for attacking childhood 
obesity, there isn't a one-size-fits-all approach for quality 
physical education. My team works with almost 1500 schools to 
solve problems with facilities, scheduling, and staffing.
    As this committee and the House considers setting new 
national standards for minutes of physical education, I 
encourage you to also consider that increasing minutes of 
instruction by itself does not necessarily increase the quality 
of physical education or the amount of moderate to vigorous 
physical activity.
    Here is another New York City example. We introduced the 
CHAMPS Middle School Sport and Fitness Program. And CHAMPS does 
not stand for champion. It stands for cooperative, healthy, 
active, motivated, positive students.
    So instead of the thrill of victory and the agony of 
defeat, you know, it is really about offering a range of 
traditional and non-traditional activities for students.
    There are now a thousand activities in 200 middle schools 
before and after the school day. You know, you like basketball, 
track and field, baseball, football? There is a program for 
you. If you are not interested in that, we have dance, crew, 
cricket, double Dutch, yoga. We have got them all.
    And so besides creating these before or after opportunities 
to complement quality physical education programs, school 
districts also need to think about how they can collaborate and 
synergize with their local public health departments.
    Under Mayor Bloomberg's leadership in New York City, the 
Department of Education and the Department of Health and Mental 
Hygiene have been finding new ways to collaborate, work 
together, and pool resources so that we can, together, leverage 
change in health and fitness habits.
    One of our most successful collaborations will soon 
generate national attention. The last school year, 640,000 
students received New York City Fitness Gram reports in one of 
nine home languages.
    We took the decades of research from the Cooper Institute 
of Aerobic Research and Human Kinetics and adapted that to meet 
the needs of our students. This result is New York City Fitness 
Gram, which measures areas of health-related fitness, including 
aerobic fitness, muscle strength and endurance, flexibility, 
and body composition.
    You know, so this data from these student reports now is 
shared with our Department of Health, which has produced the 
largest longitudinal web-based database of student fitness 
levels. We are looking at any information to see how fitness 
levels influence students' core academic achievement, and we 
continue to tailor our professional development opportunities 
so that our teachers know that they can help influence student 
fitness levels.
    This year, Chancellor Klein included the completion of New 
York City Fitness Gram reports as one of the criteria used in 
the principal's annual job performance reviews as part of his 
accountability initiative.
    We are now not only talking the talk, but we are absolutely 
walking walk when it comes to fitness education.
    In closing, I want to echo something else that the mayor 
and chancellor stressed last week. New York City is on the 
right track when it comes to physical education. Excellence in 
achievement are the cornerstones of our approach, but we have a 
lot of work to do ahead of us.
    The fact remains that 53 percent of our students are not at 
a healthy weight, and the immediate and long-term personal and 
social consequences of that fact are devastating in terms of 
health care costs and employment and educational opportunities 
for our students.
    As you consider legislation, I encourage you to look at 
students, look at schools rather, as a lever for change in 
fitness. And let me leave you today with an interesting 
question----
    Chairman Miller. You are going to leave us right now if 
you----
    Ms. Benson. Last question, and something that you may want 
to talk with your colleagues, family, and friends about.
    When you were in school, you know, did you like gym class? 
Why or why not?
    And my answer is I am a native New Yorker. I am a proud 
public school graduate. I hated gym class.
    I felt fat. I felt awkward and unsuccessful. I hated team 
sports, and that is all there was.
    You know, what we need to do is be----
    Chairman Miller. You are going to have to wrap up because 
we have other witnesses, and I don't want to lose my committee.
    Ms. Benson. Yes. My last----
    Chairman Miller. No. That was your question.
    Ms. Benson. Okay.
    Chairman Miller. Mr. Keiser?
    Thank you very much.
    Ms. Benson. Thank you very much. [Applause.]
    [The statement of Ms. Benson follows:]

Prepared Statement of Lori Rose Benson, Director, Office of Fitness and 
        Health Education, New York City Department of Education

    Good morning Chairman Miller and members of the Committee on 
Education and Labor.
    I am Lori Rose Benson, Director of the Office of Fitness and Health 
Education for the New York City Department of Education. From my 
experience in helping to meet the fitness and health challenges of New 
York City's 1.1 million students, I have three key messages that I hope 
inform your thinking and your work:
    <bullet> First, there is no magic formula for ending the national 
childhood obesity epidemic * * * but we must address this issue 
immediately, vigorously, and comprehensively.
    <bullet> Second, schools can play an important role in improving 
student fitness levels, in a culture that includes family refrigerators 
stocked with high calorie foods * * * well-worn couches that sit 
opposite TVs * * * and lack of community opportunities and facilities 
for family fitness activities.
    <bullet> Third, we must create and nurture a culture of fitness in 
schools that includes * * * but is never limited to * * * athletics and 
traditional sports with clear accountability standards tied to 
appropriate assessments.
    Last week my bosses, Mayor Michael Bloomberg and Schools Chancellor 
Joel Klein appeared before this committee to highlight the successes of 
New York City's Children First education reforms. The Children First 
reforms focus on closing our city's student achievement gap, as you 
heard, but they also tackle tough issues surrounding physical education 
and its relationship to student health and academic performance.
    Under the Mayor and Chancellor's leadership we are making great 
strides toward providing quality fitness and health instruction for 
every student * * * male or female, able-bodied or physically 
challenged, sports fanatics or couch potatoes. My office is helping 
schools provide students with the knowledge, skills, and increased 
opportunities for moderate to vigorous physical activity that are 
essential for fitness.
    While there is no silver bullet, there are programs and strategies 
that can be part of the solution.
    National health standards tell us that children need 60 minutes of 
moderate to vigorous physical activity everyday. I encourage schools to 
look not only at required physical education classes, but also at 
before and after school opportunities * * * and possibilities of 
physical activity in classrooms.
    Movement in classrooms is an exciting development in school 
fitness. In New York City we have trained more than 1,200 teachers in 
80 elementary schools using the Nike ``Let Me Play'' curriculum in 
classrooms. Regular classroom teachers are leading their students in 
fitness activities that complement, not supplant, teaching in core 
academic subjects. We're showing teachers that including activity in 
the regular classroom day gets students ``ready to learn'' and also 
teaches that lifelong fitness habits are essential for good health.
    We also introduced the Physical Best curriculum, a program of the 
National Association for Sport and Physical Education, for physical 
education classes. This is a health-related fitness education program 
for kindergarten through 12th grade. The emphasis is on empowering 
students to develop the knowledge and skills to take responsibility for 
their own personal fitness * * * to discover which physical activities 
they like best and are most likely to do on their own.
    We support that curriculum with hundreds of free year-round 
professional development opportunities for administrators and teachers. 
Creating school buy-in for fitness requires creating a culture of 
healthy fitness that goes beyond traditional ideas of ``gym class.''
    Just as there is no magic formula for attacking childhood obesity, 
there is also no one-size-fits-all formula for schools delivering 
physical education. My team works with almost 1,500 schools to solve 
problems with facilities, scheduling, and staffing.
    As this Committee and the House consider setting new national 
standards for minutes of physical education, I encourage you to also 
consider that increasing minutes of instruction by itself does not 
necessarily create a quality program or more minutes of moderate to 
vigorous physical activity.
    Here's another New York City example. We created the first ever 
city-wide middle school sport and fitness program called C.H.A.M.P.S. 
which stands for Cooperative Healthy Active Motivated Positive 
Students.
    Instead of the thrill of victory and the agony of defeat, 
C.H.A.M.P.S. offers students a range of 1,000 traditional and non-
traditional sports and fitness programs in 200 middle schools. If you 
like baseball, basketball, or track and field, we've got a program for 
you. Not interested? What about dance, crew, double dutch, or yoga? 
We've got those, too.
    School districts also need to consider how they can effectively 
interact with local public health agencies to inform families about 
requirements for healthy fitness. Under Mayor Bloomberg's leadership in 
New York City, the Department of Education and the Department of Health 
and Mental Hygiene are collaborating in new ways to pool resources and 
work together to leverage changes in health and fitness habits.
    One of our most successful collaborations will soon generate 
national attention. We took decades of research from the Cooper 
Institute of Aerobic Research and Human Kinetics and adapted it to the 
needs of our students. The result is NYC FITNESSGRAM, which measures 
components of health-related fitness in our students: their aerobic 
capacity, muscular strength and endurance, flexibility, and body 
composition. Last year about 640,000 public school students in all 
grades took home NYC FITNESSGRAM reports in one of nine home languages.
    The data from these student reports is shared with the Department 
of Health, which is creating the country's largest longitudinal 
database of student fitness. We are beginning to look at how fitness 
levels influence student's core academic achievement. We continue to 
tailor our professional development to demonstrate for teachers how 
their instruction bolsters student fitness levels.
    This year Chancellor Klein included the completion of NYC 
FITNESSGRAM reports as one of the criteria used in principals' annual 
job performance reviews as part of his accountability initiative. We 
are now not only ``talking the talk, we are also walking the walk'' 
when it comes to fitness education.
    In closing I want to echo something else the Mayor and Chancellor 
stressed last week. New York City is on the right track when it comes 
to physical education, excellence and achievement are the cornerstones 
of our approach, but we have a lot of work ahead of us. The fact 
remains that only 53 percent of students are at a healthy weight. The 
immediate and long-term personal and social consequences of that fact 
are devastating in terms of health care costs, and educational and 
employment opportunities for our students.
    As you consider legislation, I encourage you to look at schools as 
a tool and lever for changes in fitness. Let me leave you today with an 
interesting question. You might also ask your colleagues, family and 
friends. .
    The question is: ``When you were in school did you like gym class? 
Why--or why not?''
    Here's my answer: ``I am a native New Yorker and a proud graduate 
of public schools. But I hated gym class. I felt fat, awkward, and 
unsuccessful. I hated team sports, and that's all there was to do.''
    The United States must create future generations who answer this 
way: ``Physical education changed my life. I found activities that I 
was at good at * * * things that I enjoyed doing. Teachers showed me 
how those activities contributed to good health, and that's still an 
important part of my life. My teachers taught me and now I teach my 
children.''
    Thank you for this opportunity to speak today, and I would welcome 
your questions today or at any time in the future.
                                 ______
                                 

STATEMENT OF ROBERT M. KEISER, STUDENT ADVISOR TO GOV. CHARLIE 
               CRIST, COUNCIL ON PHYSICAL FITNESS

    Mr. Keiser. Can you hear me? Okay. Good.
    Good morning Chairman Miller, Ranking Member Keller, and 
members of the Education and Labor Committee. My name is Robert 
Keiser, and I am from Fort Lauderdale, Florida.
    Can you hear me? I am good?
    I would like to thank you for the honor and privilege of 
testifying before you today.
    I am here to address a growing epidemic of childhood 
obesity in the United States and to shed some light on my 
personal struggle with obesity.
    According to the Center for Disease Control, a staggering 
25.6 percent of Americans reported being obese in 2007. 
According to the American Heart Association, in 2004, over 9 
million children and adolescents ages 6 to 19 were considered 
overweight.
    The Department of Health and Human Services estimates that 
by 2010, 20 percent of the children in the United States will 
be obese. Overweight adolescents have a 70 percent chance of 
becoming overweight adults.
    The experts here today can describe the various risks and 
expenditures associated with obesity. I am here today because I 
believe by sharing my own personal story, I may help you find 
ways to help other children overcome their struggles with 
obesity.
    As a child, I was overweight. This is what I looked like 
when I was 8 years old. It is a little embarrassing, but, you 
know--I had limited physical education classes in elementary 
school.
    Like so many of America's youth, I spent countless hours in 
my room playing video games and eating junk food even though my 
parents provided healthy food choices for me. Even though I was 
an active kid--I played many sports--however, this physical 
activity was not sufficient to overcome the vicious cycle I was 
falling into.
    One day, my mother contacted a local gym and asked me to 
enroll with her in weight training and fitness classes. 
Reluctantly, I agreed, and I credit her for encouraging me to 
take the first step in changing my life forever.
    After years of video games and poor good choices, I began a 
weekly workout regimen. At first, I went to the gym two to 
three times a week. Then four to five times each week as I got 
more comfortable.
    I began noticing small changes in my body, but I realized 
it was still not where I wanted to be. My trainer, Manny Mair, 
a former member of the United States Marine Corps and licensed 
fitness trainer, evolved into a second father figure for me. I 
made a personal commitment to take the steps necessary to lead 
a healthy lifestyle.
    It is a decision that has positively affected every aspect 
of my life. I became involved in boxing and weight training 
which established a set regimen for my daily activities.
    Manny also created a nutrition program for me that 
consisted of healthy choices. Through intense training and a 
commitment to eating healthy food, I lost over 30 pounds. This 
experience changed every aspect of my life for the better. 
Excuse me. I finally broke the vicious cycle.
    During my freshman and sophomore years I hovered around a 
3.5 GPA. I played football during middle school but my weight 
prevented me from playing during my freshman and sophomore 
years at Pine Crest because the conditioning was too hard and I 
didn't want to feel embarrassed or inadequate.
    After losing the weight, I achieved my life-long dream in 
my senior year becoming a co-captain of the Pine Crest football 
team. I had more energy and I didn't feel tired all the time. 
And my GPA got as high as a 4.3. So a 3.5 to a 4.3.
    More important than these accomplishments, I saw how losing 
weight had changed my life. My personal triumph over obesity 
changed how I viewed myself. It made me happier, more 
confident, and more successful at school. In fact, meeting this 
personal challenge head on has given me the confidence to speak 
to you today.
    Having won my own battle, I wanted to help other kids 
overcome their struggles with obesity. I recognized that not 
all kids would be as fortunate as I was to have a personal 
trainer to turn to for help. So I established the Legislative 
Advisory Teen Council of Broward Days, comprised of public and 
private school teens united to address the many concerns of 
Florida's youth.
    I learned that legislation had been introduced in Florida 
mandating 150 minutes of physical education in Florida schools 
grades K-5. So I led members of the teen council to Tallahassee 
to lobby the state's legislators in support of the bill.
    I testified before the K-12 committee, sharing my personal 
struggle with obesity, much as I am doing now. The bill passed 
unanimously in the Florida House and Senate and was signed into 
law in May 2007.
    Florida media and the American Heart Association became 
interested in my story and I realized that I was making a real 
difference. And, to top it all, I was appointed by Governor 
Crist as the only teen member of the Governor's Council on 
Physical Fitness.
    My personal story is one of overcoming the odds and being 
blessed by accomplishments. I was fortunate to have the love 
and support of my family, my trainer, and my friends--something 
not all teens have.
    It is my dream that children and teens who struggle with 
obesity don't have to face this problem alone, and that they 
can overcome unhealthy lifestyle habits if they have support 
from schools, counselors, PE teachers, and others to do so.
    I think it is critical that a legislative advisory teen 
council is created in every state that can champion the 
concerns of youth on this and other important issues. I am 
aware of states that have established these councils and their 
successes are well documented.
    My second recommendation is that these councils have a 
coordinated mentoring program to assist teens and youth seeking 
to better their lives through physical fitness and healthy 
living. Learning how to be fit and healthy is an important 
first step in making a difference in shaping America's future.
    Mr. Chairman, esteemed members of the committee, again, I 
want to thank you for this opportunity. I will be glad to 
answer any questions you may have. [Applause.]
    [The statement of Mr. Keiser follows:]

 Prepared Statement of Robert Keiser, Student Advisor to Gov. Charlie 
                   Crist, Council on Physical Fitness

    Good Morning Chairman Miller, Ranking Member McKeon and members of 
the Education and Labor Committee. My name is Robert Keiser and I'm 
from Fort Lauderdale, Florida. I would like to thank you for the honor 
and privilege of testifying before you today.
    I am here to address the growing epidemic of childhood obesity in 
the United States and to shed some light on my personal struggle with 
obesity.
    According to the Center for Disease Control, a staggering 25.6% of 
Americans reported being obese in 2007. According to the American Heart 
Association, in 2004, over 9 million children and adolescents ages 6 to 
19 were considered overweight. The Department of Health and Human 
Services estimates that by 2010, 20 percent of children in the U.S. 
will be obese. Overweight adolescents have a 70 percent chance of 
becoming overweight adults.
    The experts here today can describe the various risks and 
expenditures associated with obesity. But I am here today because I 
believe that, by sharing my own personal story, I may help you find 
ways to help other children overcome their struggles with obesity.
    As a child I was overweight. I did not have physical education 
classes in elementary school. Like so many of America's youth, I spent 
countless hours in my room playing video games and eating junk food, 
even though my parents provided healthy food choices. Even though I was 
an active child and was involved in many sports, this physical activity 
was not sufficient to overcome the vicious cycle I was falling into.
    One day my mother contacted a local gym and asked me to enroll with 
her in weight training and fitness classes. Reluctantly I agreed and I 
credit her for encouraging me to take the first step in changing my 
life forever.
    After years of video games and poor food choices, I began a weekly 
workout regimen. At first I went to the gym two to three times each 
week, increasing to four and five times a week as I got more 
comfortable. I began noticing small changes in my body, but I realized 
I was still not where I wanted to be.
    My trainer, Manny Mair, a former member of the United States Marine 
Corps and licensed fitness trainer, evolved into a second father figure 
for me. I made a personal commitment to take the steps necessary to 
lead a healthy lifestyle. It is a decision that has positively affected 
every aspect of my life. I became involved in boxing and weight 
training which established a set regimen for my daily activities. Manny 
also created a nutrition program for me that consisted of healthy 
choices. Through intense training and a commitment to eating healthy 
food, I lost over 30 pounds.
    This experience changed every aspect of my life for the better and 
I finally broke the vicious cycle. During my freshman and sophomore 
years I hovered around a 3.5 GPA. I played football during middle 
school but my weight prevented me from playing during my freshman and 
sophomore years at Pine Crest because the conditioning was too hard and 
I didn't want to feel embarrassed or inadequate. After losing the 
weight, I achieved my life-long dream in my junior and senior years 
when teammates chose me as co-captain of the Pine Crest Panthers 
football team. I had more energy and I didn't feel tired all the time. 
And my GPA increased to a high of 4.3.
    More important than these accomplishments, I saw how losing weight 
had changed my life. My personal triumph over obesity changed how I 
viewed myself. It made me happier, and more confident and successful at 
school. In fact, meeting this personal challenge head on has given me 
the confidence to speak before you today.
    Having won my own battle, I wanted to help other kids overcome 
their struggles with obesity. I recognized that not all kids would be 
as fortunate as I was to have a personal trainer to turn to for help. 
So I established the Legislative Advisory Teen Council of Broward 
County, comprised of public and private school teens united to address 
the many concerns of Florida's youth.
    I learned that legislation had been introduced in Florida mandating 
150 minutes of physical education in Florida schools grades K-5. So I 
led members of the teen council to Tallahassee to lobby the state's 
legislators in support of the bill. I testified before the K-12 
committee, sharing my personal struggle with obesity, much as I am 
doing now. The bill passed unanimously in the Florida House and Senate 
and was signed into law in May 2007.
    Florida media and the American Heart Association became interested 
in my story and I realized that I was making a real difference. And, to 
top it all, I was appointed by Governor Crist as the only teen member 
of the Governor's Council on Physical Fitness.
    My personal story is one of overcoming the odds and being blessed 
by accomplishments. I was fortunate to have the love and support of my 
family, my trainer, and my friends--something not all teens have. It is 
my dream that children and teens who struggle with obesity don't have 
to face this problem alone, and that they can overcome unhealthy 
lifestyle habits if they have support from schools, counselors, PE 
teachers, and others to do so.
    I think it is critical that a legislative advisory teen council is 
created in every state that can champion the concerns of you on this 
and other important issues. I'm aware of states that have established 
these councils and their successes are well documented. My second 
recommendation is that these councils have a coordinated mentoring 
program to assist teens and youth seeking to better their lives through 
physical fitness and healthy living. Learning how to be fit and healthy 
is an important first step in making a difference and in shaping 
America's future.
    Mr. Chairman, esteemed members of the committee, again I want to 
thank you for this opportunity. I will be glad to answer any questions 
you may have.
                                 ______
                                 
    Chairman Miller. Thank you.
    Tim?

STATEMENT OF TIM BROWN, FORMER PROFESSIONAL FOOTBALL PLAYER AND 
     NATIONAL CHAIRMAN, ATHLETES AND ENTERTAINERS FOR KIDS

    Mr. Brown. Chairman Miller, thank you very much for the 
opportunity to be here today.
    When I was asked to be here, the first thing I thought 
about was my experience with the youth over the last 20 or so 
years. I have been involved in many football camps and went to 
many camps that we have in the Oakland area where I bring about 
150 kids every summer who are fatherless young men.
    And I have a mentor--camp with these kids trying to 
surround them with football, but the idea is to get them some 
mentors. What I have learned over the last 10 years is these 
kids are out of shape, and these are the jocks.
    These are the kids that everybody thinks can go and do 
everything that you want them to do on the athletic field. But 
that is just not the case any more. We have found it necessary, 
over the last couple of years, to have an ambulance and 
paramedics at the facilities. And we have had to use those 
facilities, unfortunately, because kids are passing out.
    Kids are overly dehydrated and cannot finish the activities 
that we are putting forth. And this is over a 2-hour period. 
This is not 8 hours. This is California we are talking about. 
So we are not talking about the heat of Texas or someplace like 
that.
    But I find it very disturbing. And when you have the 
opportunity to sit down and talk with these kids, you ask them 
what are you doing. I mean, you know, what are you doing on a 
day-to-day basis as far as your activities.
    And all you hear, well, I play Playstation. I am very good 
at the guitar game. I am very good at these things that have 
nothing to do with physical activity.
    And the thing that discourages me the most is when I speak 
with the parents. And the parents think that it is great that 
these kids are--well, at least they are safe. At least they are 
at the house. At least I don't have to worry about them. When I 
leave the house, I don't have to worry about them in the 
streets getting in trouble or doing these things.
    Well, what I try to tell the parents is it is very 
important that they get their kids out. The sedentary lifestyle 
that kids are living these days is very detrimental to their 
health.
    And it was mentioned before, by a certain age, they should 
know what they are capable of doing. But that is--that is going 
to be instilled by your parents.
    Now, thankfully for me, you know, growing up, my mom didn't 
let me stay in the house. My father wouldn't let me stay in the 
house. And in the heat of summer, I had to get outside. I had 
to go out there and play. I had to do those things that a lot 
of people don't want their kids to do now.
    But it taught me something. It taught me that physical 
activity made me feel better about myself. It made me feel as 
if that I was--I was worth something.
    I mean, I can go--I could do a lot of different things. But 
that is just not happening any more.
    And when you talk--a lot of people think jocks are in 
better shape, but even in the NFL, they are having a real issue 
with trying to keep people in shape because they are having to 
teach them things that they just haven't learned.
    The fundamentals of the game is going by the wayside 
because kids don't do the things that they used to do coming 
into the NFL.
    So the inactivity of kids these days--and when you talk 
about the sedentary lifestyles that they lead--it is going to 
lead to what we are having now.
    One of the things that I am involved with is with an 
organization called the National Council of Youth Sports is 
trying to get kids away from fundraising with candy because you 
see that being a direct correlation to childhood obesity. 
Because a lot of those kids are not selling the candy, they are 
eating the candy and they are taking the candy home and the 
parents are paying for it and the kids are eating it.
    So we are trying to get that out of their hands because we 
know that that is a real issue.
    Even in my own family, you know, I have nieces and nephews. 
My kids--I make my kids do certain things.
    You know, I was very thankful when the Wii came out because 
at least now the kids can stand up and play games. They can 
move around.
    You know, I have a 5-year-old son who plays the tennis game 
and, you know, you don't have to move, but he is running around 
the room, you know, trying to hit the ball. And I love that 
because he is moving around.
    But I have other members of my family who are not as 
active. And we tried many things to try and get them motivated, 
including taking them to facilities where you see people who 
are not doing as well. And if you have to scare them straight, 
you have to scare them straight.
    But we tried, and we will continue to do everything 
possible to keep--to get these kids--even in my own family--to 
keep them moving in the right direction.
    So I am very happy to be here to just to lend my voice on 
the jock side of this, you know, because everybody thinks of 
jocks and they think, oh, well, the jocks don't have this 
problem.
    But I am here to tell you, even with our young kids who are 
supposed to be athletic, there is an issue. There is a real 
issue that I am very concerned about, and I am doing everything 
I possibly can to encourage these kids to keep moving.
    You know, I have a motto in my house, ``If you eat it, you 
got to move it.''
    And if you do that, I found that it will work for you. But 
to eat things and to have this sedentary lifestyle the way that 
a lot of kids do these days, it is a very difficult thing.
    And it is--you know, you hear all the stats and you have my 
report in my statement in front of you with all of those things 
in it, but I just found that it is very discouraging for me, 
especially when I speak to the parents----
    And I think we talk a lot about the kids and encouraging 
the kids, but I would encourage for some programs to be put 
together for the parents to understand the risks that their 
kids will have in they don't engage them in financial activity 
at a very young age.
    And there are plenty of ways to make it fun. There are 
plenty of ways to make it competitive. But at the same time, 
the necessity of it is what, I think, everyone should know.
    Thank you very much.
    [The statement of Mr. Brown follows:]

 Prepared Statement of Tim Brown, Former NFL All-Pro Player, National 
              Chairman, Athletes and Entertainers for Kids

    Thank you Mr. Chairman. My name is Tim Brown and I am grateful to 
you and members of the Committee for the opportunity to testify this 
morning about the health and fitness of America's youth.
    During my football career and since, I have devoted much personal 
time to support youth development initiatives. I recognize I've been 
blessed with good health and a loving family, and I'm happy to have 
been able to give back in several ways. Our Mentoring Mini Camps take 
100-150 fatherless boys each year and match them with role models while 
allowing them to have fun by playing football. Our Tim Brown Foundation 
runs a summer enrichment program which takes 175-200 kids for 10 weeks 
in the summer, all day, five days a week, and provides education, arts, 
sports and field trip opportunities for many who might otherwise be 
left with few healthy and fun choices in terms of how they spend their 
summertime. Since 1995 I've been the national chairman for Athletes and 
Entertainers for Kids/9-1-1 for Kids, which teaches kids how to handle 
emergency situations. Additionally, I work with the National Council of 
Youth Sports to increase funding and capacity for our nation's largest 
youth sports organizations.
    I mention this brief background mostly to highlight some experience 
I bring to the discussion of children's well-being. In my view, our 
nation has to take immediate action to get our children to live more 
active and healthy lives. Providing quality daily physical education 
will go a long way to achieving this goal.
    As a professional athlete, I have had the opportunity to speak to 
thousands of children. I'm saddened by how many children I meet every 
year who are struggling with being overweight or obese. At the same 
time, I'm struck by the dangerous number of kids who are not yet 
overweight but are headed down the road to ill health because they get 
so little physical activity and they have such unhealthy diets. 
Sedentary lifestyles mixed with bad food choices are too often the 
norm. The solution has to be focused on getting our kids to embrace 
regular exercise and good nutrition.
    At the football camps in which I am involved, I see that kids just 
can't keep up like they used to. We have more kids every year who come 
to camp excited to play football, but who simply can't keep up with the 
basic drills once they get on the field. It's not just the seriously 
obese. In many cases, these are kids who look okay by appearance, but 
whose cardiovascular endurance is so low they can't even play enough to 
enjoy the game. It's dangerous and sad.
    It seems every day we see statistics and studies that make the same 
point.
    The percentage of obese children in America has tripled in past 
twenty years. The U.S. Surgeon General says obesity is the fastest 
growing cause of death and illness in America. Health and Human 
Services Secretary Michael Levitt says obesity and the inherent 
diseases that result have to be considered among our most significant 
health threats in this country.
    Some are estimating that for the first time in our nation's 
history, today's young people could be the first generation of 
Americans to have a shorter life expectancy that their parents.
    I'm sure this Committee knows most of these statistics and their 
implications. This is a serious situation. I applaud the Committee for 
this hearing and I hope your work will result in a greater commitment 
in America's schools to physical education and nutrition awareness.
    The good news is that there is a tremendous amount of progress 
being made. Around the country, innovations in Physical Education are 
making a big difference. The School district of West Babylon, New York, 
after receiving a Carol White PEP grant, reported they ``systematically 
changed their PE programs and have already seen a 2% drop in the 
overall obesity rate of their student population.'' When Miami Dade 
County Public Schools implemented the ``Shaping The Future'' program to 
help high school students make better fitness and nutrition choices, 
they registered significant improvements in fitness levels for a) least 
fit students; b) overweight and active; c) already relatively fit and 
active; d) African American and Latino; and e) males and females. In 
other words, a good innovative physical education program can improve 
the health of every student.
    And the benefits go beyond immediate health measures. Most of us 
appreciate intuitively the old adage linking ``sound mind and sound 
body.'' A 2002 California Department of Education Study found higher 
academic achievement was highly correlated with higher levels of 
physical fitness, to the point that the State Superintendent of Public 
Instruction said, ``We now have the proof we've been looking for. 
Students achieve best when they are physically fit.''
    It is not science or math versus physical education. It is science 
and math and physical education. Provided together, a child will learn 
better.
    Good physical education has been shown to promote good behavior. 
Within one year of implementing daily PE through the PE4Life program, 
inner-city Woodland Elementary in Kansas City, Missouri experienced a 
67 percent decrease in disciplinary incidents resulting in out-of-
school suspensions. The same PE4Life model is being considered for 
Chicago schools.
    More good news is that there is a growing realization that everyone 
has a responsibility to address childhood inactivity. PE4Life, YMCA, 
American Heart Association, and National College of Sports Medicine are 
just a sampling of organizations doing wonderful work supporting 
quality physical education. Closer to my world, the National Football 
League launched ``Play 60'' last year, a national youth health and 
fitness campaign encouraging young people to be active at least 60 
minutes a day. Play 60 incorporates ``What Moves U'', a fitness 
promotion program of NFL Charities and the American Heart Association 
which has reached 25,000 middle schools.
    Some of the best of today's physical education programs reach kids 
where they are. They use technology to inspire and motivate them. Using 
heart rate monitors in physical education allows kids to understand and 
take control of their own fitness in ways they never could before. 
Appropriate technology also can attract kids who normally would not see 
themselves as athletic or sports-oriented. Across the country, schools 
are getting big groups of kids dancing, smiling and sweating through 
Dance Dance Revolution and similar technologies. We're now seeing some 
video game companies creating games that force players to move around 
while they play. If it gets more people moving, I think it's not a bad 
thing. The best PE programs will figure a way to incorporate such 
innovations into their curriculums. These should be supported.
    In closing, I recognize this committee has a full plate in 
overseeing all the challenges facing our country's education system. I 
urge you to recognize the overall value and priority of quality 
physical education and nutrition awareness in helping our children to 
live healthy, productive lives.
    Thank you for the opportunity to be here today.
                                 ______
                                 
    Chairman Miller. Thank you. [Applause.]
    Thank you all for your testimony and for your expertise.
    Zach, you are more than welcome to join the members at the 
table.
    Dr. Pate, in your testimony, you cite what many of us have 
heard on this committee; all the reasons why P.E. has been 
reduced or dropped from the school day. No Child Left Behind or 
teaching to the test or whatever it is they have done.
    And it has been suggested that some kind of decision was 
made that P.E. was less important than the drill time on 
reading or the drill time on mathematics, that this was less 
important.
    Given all the statistics that have been offered here, both 
by those of you on the panel and my colleagues on the committee 
and what we read on a daily basis, we are reading about a daily 
horror show with respect to the health status of young children 
in this nation and teenage children in this nation.
    So it would seem to me that you have to recalibrate the 
priorities of the community and of the schools about the 
importance of physical activity in that school day. And you 
have the ability to combine that with academic achievement as 
the other evidence that you have presented suggested to this.
    Ms. Benson, obviously, I love her mayor and chancellor 
because they just break a lot of china on their way to making 
change. But she has demonstrated that there are opportunities 
within the school day, after the school day, for this kind of 
activity.
    But you spend a lot of time talking to people in this 
field. Do you get any sense that people are rethinking the 
model that they are using because, one, the students tell us 
that they are completely bored when they keep adding the drill 
and kill assignments.
    And the teachers say in the next breath that what they are 
doing isn't working.
    So how do we change the balance here in terms of health 
status of this generation?
    Mr. Pate. Mr. Miller, I think that is an enormously 
important question, and I do believe this issue is starting to 
turn.
    As Representative Wamp mentioned earlier, I don't think we 
have to make a choice between more activity for kids and 
continuing to pursue appropriate academic goals. I don't think 
it has to be one or the other. I don't believe they have to 
compete with one another.
    I do think we have to pursue creative approaches to 
providing physical activity during the school day.
    And, you know, as Lori mentioned and others have mentioned, 
I believe there are very important developments in this field 
that are demonstrating that we can add physical activity during 
the school day, some of that activity added in the classroom, 
which has traditionally been a quite sedentary environment and, 
frankly, have it both ways.
    Have kids do well academically and also gain meaningful 
doses of physical activity.
    Chairman Miller. Ms. Benson, so how does that compare with 
what you are finding in terms of the acceptance and the 
understanding of the importance of the changes that you are 
applying?
    Ms. Benson. You know, what is so interesting is that as we 
are embracing this culture of fitness, classroom teachers are 
really beginning to understand that this is a good thing.
    It is not an extra something I have to fold in, but it is 
something that we see a benefit in terms of increased energy 
levels, in terms of a better transition throughout the day.
    And there is less and less resistance and more and more of 
how can I do this. You know, what are some of the interesting 
strategies? How can we help?
    And I think it is important for us and everybody in the 
field to keep highlighting these best practices, to say yes you 
can do this. You know, and it doesn't have to be no-pain, no-
gain. You can accomplish this with the least amount of 
resistance and the most appreciation for having this culture of 
physical activity within the school day.
    Chairman Miller. And one of the other things that seem to 
be changing in this discussion was early on, it was a 
suggestion that you were dropping P.E. or that class time and, 
therefore, you were dropping exercise.
    And I think, again, Ms. Benson, in your testimony and in 
Tim Brown's testimony, this isn't just about a sport. This is 
about health status and moving.
    And I noticed when you were naming the sports, Richard was 
frowning a little bit, and then you mentioned----
    Mr. Simmons. I was not.
    Chairman Miller. You mentioned--yes, you were. [Laughter.]
    Say you are a liar. So am I--back to you. [Laughter.]
    They are never going to hang my picture in this committee. 
[Laughter.]
    I had a thought here. You lit up when she mentioned dance 
and when Tim Brown mentioned keep it moving.
    Mr. Simmons. [OFF MIKE]
    Chairman Miller. Let me finish for one second here. 
[Laughter.]
    See this. Because what I find, also, is with a great deal 
of incredible encouragement by parents, kids pick up a sport. 
But when they get a chance to independently exercise their 
judgment, they very often say I don't want to play this any 
more.
    But they then lose much of their activity because they are 
not encouraged with an alternative. So you are back to games or 
what have you.
    Richard, I want to give you a moment here because I think 
it is important because if people think it is about whether 
they are going to be proficient at that sport, whether they are 
going to start, whether they are going to make the traveling 
team, whether they are going to make the select team, for a lot 
of kids, that is a serious confrontation with yourself.
    But if it is about exercise that people can participate in 
and they can relate it to their own health status with some 
education, it seems to me that the number of young people that 
would be amenable to this and accepting it would be far 
greater.
    Richard?
    Mr. Simmons. Well, fitness cannot be competition. And there 
is a big problem there. You know, when you----
    Fitness cannot be competition. When you are sitting in a--
when you are standing in the school yard in the elementary 
school and there are two captains and they are picking the 
people, all the other people that don't get picked sit by the 
sidelines; there is nothing else for them to do.
    But every child, as I said, needs what the adults in this 
room and in every room need; and that is cardio, strength 
training, and stretching flexibility like everyone else said.
    You know, as a child, we teach our children through music, 
the alphabet, the numbers, and a lot of things about life. And 
then at a certain age, the music stops and everything becomes 
academic.
    You cannot ask children to come to class before time and 
you cannot ask children to stay after time. You have to take it 
in the curriculum. You have to make this happen.
    So my ideas are there are thousands of certified fitness 
instructors who have gone through training, who know the 
anatomy, who teach classes. They do it part time because they 
have another job.
    But I want to assemble these instructors. You see, 
Chairperson George Miller, every school does not have a P.E. 
teacher. Sometimes, the P.E. teacher goes to five or six 
different schools.
    And it can't be the job of a history teacher and the math 
teacher to teach them how to lift their legs and how to sweat. 
You need a certified instructor. I have talked to so many of 
these instructors; they are willing--is it state, is it 
federal, who is paying for this?
    I believe that we can raise the money to have these fitness 
instructors come into the schools part time, teach the classes, 
noncompetitive, and make every child feel good about 
themselves.
    And as I said before, we are all servants for you. We will 
do anything. We have enough experience and enough sweat behind 
us that we could really put together a program that every child 
will feel good about.
    You know, the No Child Left Behind Act was supposed to make 
our children well-rounded. Well, it made them rounded, and we 
have to change that. And we can only change that by doing 
fitness every day and being a good example with the food.
    Chairman Miller. Thank you.
    Mr. Keller?
    Mr. Keller. Thank you very much, Mr. Chairman.
    And I want to thank you all for being here.
    I think sometimes our celebrities don't realize what a big 
impact they have on kids; much more so than a politician, even 
the president.
    As I sat with Dr. Dot Richardson and she let the kids hold 
her gold medals, they just lit up like a Christmas tree. And I 
know that from my own kids.
    My son, Nick, is not very impressed that his dad is a 
congressman and has no desire to go to the White House, but in 
his room, he has a photo of him with Dr. J. and a football 
signed by Tim Brown.
    And those are the heroes. So thank you for what you do.
    One of the things that shocks me as I look at you, Mr. 
Brown, I just met with another Heisman trophy winner not too 
long ago, Herschel Walker; you all look the same as when you 
were playing.
    And it gets me to the issue of----
    Mr. Brown. I can assure you I am not the same.
    Mr. Keller. What is the difference between you--are you 
about the same weight now? Are you less or more?
    Mr. Brown. No. I put on about ten pounds.
    Mr. Keller. You put on about ten pounds.
    Mr. Brown. It is a good ten pounds, though, right?
    Mr. Keller. Herschel said two that he put on.
    But essentially, you have maintained your physique over all 
these years. And when you look at the people who are successful 
in keeping the weight off in the National Weight Control 
Registry, the three things they had in common: They all ate 
breakfast, they all exercised an hour a day, and they all 
checked their weight once a week to see if they are deviating.
    Even--let me ask you this: As an athlete, even at your 
level, do you still need to make an effort to have those 
healthy habits of exercising daily and eating right?
    Or is it just naturally a gift that God gave you?
    Mr. Brown. Well, I have been very gifted by God, that is 
for sure.
    But no, it is work. It is a situation--I was speaking about 
that this morning with Mr. Cole, I have to put an effort into 
it.
    I try and do the same workout that I was doing when I was 
playing. I am hitting the numbers almost the same, you know. 
But it is an effort. It is not something that comes easily or 
is just natural. I have to definitely work at it on a day-to-
day basis.
    Mr. Keller. Okay. Thank you.
    Mr. Simmons, very passionate speech.
    You talked about the mental health aspects of exercise.
    Let us take a hypothetical and see what--what advice you 
would give to parents. Let us say that you have a middle school 
child who is overweight and never eats breakfast all. And you 
want to sit down with him and mom and dad, but you don't want 
to hurt his self-esteem about pointing out the overweightness 
or whatever.
    How would you motivate that child to eat the breakfast 
every morning and motivate the parent to make sure the kid does 
it?
    Mr. Simmons. It is a--you know, it is everybody. It is not 
just the parent. It is not just the children. It is the family. 
We have more overweight and obese families in the United States 
than ever before.
    I visit housebound people. I visit families where all the 
children are overweight.
    But there is a chance, 40 to 60 percent chance, if a child 
is obese and overweight, one or two of the parents suffer from 
that, too.
    So I think it really is an intervention. I think you have 
to sit down and in lay talk with the kids, really talking to 
him about nutrition, about the body, also educate the parents, 
let the parents and the children go grocery shopping together, 
let them start to be more physically active together.
    You see, if we had the Fit Kids Bill, the kids would 
exercise every day and then they would go home to their parents 
and their parents would go, look at my kid. What are you doing?
    And all of a sudden, the parents would start to feel that 
motivation because nothing is greater than to lose the weight 
like you did and to look in the mirror and say four words that 
maybe you didn't say before.
    And those four words are: I am worth it.
    So what I try to do is give worth to the children, give 
worth to the parents, make them feel good about themselves 
right now, you know. Not when they lose their weight but right 
now and give them hope and self-worth and self-esteem.
    And that is going to come through a lot of hard work, plus 
I think some of the schools should offer the entire family 
courses. I think to bring the children and the parents in to 
talk about nutrition, to talk about the body, and let the 
family unit do this together.
    Mr. Keller. Well, thank you.
    With my minute left, I want to direct the next question to 
both you and Congressman Wamp because you both hit on the 
subject about the best way to reduce stress in the world is 
sweat, about best mental health aspect.
    I think I said in my opening that I have learned----
    Mr. Simmons. When you are feeling lousy about yourself, you 
have no self-worth and you have no dignity in your life.
    And when you are a test score and score at school--and it 
is all about testing--the kids are very stressed out. You can't 
imagine how many children under the age of 15 are taking 
antidepressants.
    But the exercise--you know, the kids own the pop charts 
today. They own--they love music.
    I take CDs, I make music up from all the current music. I 
have gone to hundreds of schools to teach.
    And I can just see it lifted because it is not competitive. 
Their stress level, you know, disappears when they are feeling 
they have worth.
    Mr. Keller. Congressman Wamp, do you want to address the--
--
    Mr. Wamp. I think that is the biggest secret that I didn't 
see coming. I didn't get into my exercise routine to reduce 
stress, I did it to feel better and look better and get 
healthier, and I was shocked that the biggest side effect is I 
am hardly stressed over anything.
    Mr. Simmons. You are stressfull, and you are cute. 
[Laughter.]
    Mr. Wamp. Well, thank you. I am stressful now, I will tell 
you that. [Laughter.]
    Mr. Keller. Congressman Wamp, my time is up.
    Can you address that issue about the stress benefits?
    Mr. Wamp. Oftentimes, when human beings are on the wrong 
road, they try to cross over to get on the right road instead 
of going back to where they started.
    And going back to the fundamentals, it is fundamental as 
air and water and food and exercise and sleep. It is that 
fundamental. And without any of those in the proper balance, 
you got a problem.
    And the holistic approach--if kids sleep well at night--
which let me tell you, you sleep like a dead man if you 
exercise regularly. And that is good. I mean, close to death, 
not all the way.
    Just, I mean, you get your heartbeat down, you sleep good, 
you wake up, and you are productive and you have a whole 
different outlook.
    A lot of kids aren't sleeping well because they are not 
physically well. It is all tied into this holistic approach to 
quality of life and good health care.
    I got to tell you, Mr. Chairman, it is going to save us the 
future of Medicare, the future of Medicaid, SCHIP. All of these 
government programs are unsustainable going forward unless we 
get this around on the front end.
    That is why the fourth grade is the key moment in their 
life. If they understand by the fourth grade that there is a 
consequence to not having physical activity in your life, then 
we can get our arms around these health care things.
    But the productivity, Ric, is just astronomical.
    Chairman Miller. Thank you.
    I will attest to this. My grandchildren are very, very 
active and they sleep very well.
    I just sent an e-mail out to my daughter-in-law asking if 
they were going to come in to see their grandfather today. And 
they said, no, they are still sleeping----
    [Laughter.]
    Mr. Keller. They are on California time, is their excuse.
    Chairman Miller. Mr. Kildee?
    Mr. Kildee. Thank you very much, Mr. Chairman.
    It has been 43 years since I taught school, but in those 
days, I can recall, I used to help the counselors make up the 
schedule.
    And we would--first hour might be English and then Latin, 
then P.E. as a regular class, history, and trig. And everyone 
was required to take P.E.
    Is that a good pattern, or is there a better pattern that 
we should have? Dr. Pate, you want to expound on that?
    Mr. Pate. I think there is--I believe there is enormous 
concern and should be that, as others have cited, activity 
levels decline with increasing age and grade level in children 
and to rather low levels by the time they are in middle and 
high school.
    And the erosion in the provision of physical education over 
recent decades has been most clear at the high school level. So 
as kids are becoming less and less active, the schools are 
tending to provide less and less support for their activity.
    I think that is a tremendous concern and I think, clearly, 
is part of the reason that we tend to see increasing prevalence 
of overweight and obesity as kids get into those age ranges.
    Mr. Kildee. Well, you know, I taught high school, Central 
High School. It is interesting that the kids who arrived from 
our Latin class--I was a Latin teacher--rather than being tired 
or weary from the P.E. class which may have taken place just 
before the Latin class, they were always very alert.
    They know--very well. They knew their Latin well. They 
really--they seemed to be more invigorated.
    That pattern isn't a common pattern now, is it, where you 
actually take P.E. as a regular class, regular class time?
    How common is it now and, again, would it be a good pattern 
to return to?
    Mr. Pate. Sadly, it has become quite uncommon at the high 
school level, at the middle school level. It is a very mixed 
picture across the country.
    Generally, children in the middle schools are receiving 
physical education, but not necessarily at every grade level, 
not necessarily across the entire school year.
    At the elementary level, children typically have physical 
education, but they often have physical education with a 
certified teacher rather infrequently. And a quite common 
pattern would be one 30-minute class period with a certified 
physical education teacher per week.
    The math just doesn't work. If we expect physical education 
to meaningfully provide physical activity to our children 
throughout their school years, it just simply cannot do it with 
the level of exposure that is currently provided.
    Mr. Kildee. Well, when I was teaching, they took Latin 5 
days a week, trig 5 days a week, and P.E. 5 days a week, and it 
was considered--and everyone had to dress for it.
    Some might have greater capabilities than others, some 
might have some problems, but they all had to dress for it and 
we fit it into the school day.
    And there is talk, even for other reasons, perhaps, to 
extend the school day. But, perhaps, if we are extending it, we 
could at least fit in what we had as a regular pattern.
    Everyone in Flint, Michigan--we had three high schools--and 
they all were--everyone had to take P.E. and dress for P.E. 
every day. And I think it was very helpful. But that pattern 
seems to be the exception now.
    Thank you, Mr. Chairman.
    Mr. Castle. Thank you, Mr. Chairman.
    Let me, first of all, thank all the panelists here today, 
Ron and Zach and all of you.
    I think you have hit on something which is extremely 
important, and you have articulated it very well.
    Let me address a question for Mr. Simmons, and everyone 
else is welcome to chime in at some point.
    I have listened attentively to all that has been stated 
here today, and a lot of it revolves around P.E. classes in 
school, organized classes outside, or whatever it may be.
    And it occurs to me that all that is not going to happen 
right away. You just can't snap your fingers and get changes 
made in that way.
    So my question is: Are there recommendations that you have 
in terms of what kids can do now, of what teachers and parents 
can urge theirs kids to do now with respect to their physical 
programs? I am thinking about things like walking to school, 
riding bikes, whatever it may be.
    Believe it or not, this is about as sedentary job as you 
can get that we are in. We have been sitting here for 2 hours. 
So we actually have to walk when we go over to vote, and on 
some voting days, we get a lot of walk which can make a 
difference.
    Are there other 15-minute type programs or anything that we 
can recommend that could be done now, assuming the kids are 
willing to do it?
    Mr. Simmons. Well, I applaud all of the teachers who really 
don't have it in their curriculum to each fitness, they will 
put a video on, they will get the kids up, they will get them 
moving.
    You know, we can't overuse your children. We can't extend 
the day. We have to find, in the time that they are in school, 
this time to implement P.E.
    Does 15 minutes do a lot? Well, it does a little bit, but 
it doesn't do a whole lot.
    I think it is up to the PTA, to the Parents and Teachers 
Association, to look at their particular school, and if there 
is no funding, they can always do fundraisers. They can raise 
money in order to bring in teachers in order to teach cardio, 
strength training, and stretching.
    But, no, this is not an easy fix. And 15 minutes is a Band-
Aid until we can get all the schools, the public schools in the 
United States, to rejoice and be jubilant about getting our 
kids healthy.
    You know, again, I said to bring the parents into the 
schools. Have something at night or on the weekends for them to 
go to to be educated.
    But you know, you just can't--it is not an easy fix, and it 
is going to take all of you, Congress, Senate, the president, 
to pass the Fit Kids Bill so that we can put this into 
production and get our kids healthier.
    Fifteen minutes will not lower their cholesterol. Fifteen 
minutes will not take away their stress or depression. Fifteen 
minutes will not make them fit. It is a beginning.
    Many school teachers e-mail me and tell me they use my 
videos and DVDs and other ones in the classroom just to get 
them up every 2 hours to just get them moving.
    But, again, that is a Band-Aid. Don't you think?
    Ms. Benson. I think that at a policy level, at a school 
district policy level, it is really about a commitment to 
systemic change.
    Everything that I spoke about today did not exist 4 years 
ago within the New York City Department of Education. They were 
small pilots that became large steps that have effected 
hundreds of thousands of students.
    So I think you need to look at all the different spokes in 
the wheel. You need to add those 15 minutes where you can 
because they will add up.
    You need to create sustainable change at all levels, at the 
policy level, in the classroom, at the school level and beyond.
    And again, engaging those families, because all those 
minutes, all of those changes in attitudes and behavior, that 
is what it is about. It is the changes, not just in terms of 
the minutes you do today, but the attitudes and behavior that 
will effect what students do as they grow up to become adults.
    Mr. Keiser. If I could quickly add something, I just wanted 
to back up what they were saying.
    As part of the governor's council, we had to go to public 
schools in Florida. Many of the concerns regarding P.E. in 
school was the physical responsibility of the school and 
whether they can get enough funding to add it into the 
curriculum or whether they could have enough time because of 
the FCAT because there was a new science requirement added just 
recently in Florida for the FCAT.
    And I talked to teachers, and they said that they are 
making strides to add some physical education into it, not 
necessarily, you know, going outside and running, but what they 
would do is they would have a program where they would say how 
many steps will it take to get to Everest.
    And they would have everyone go out on the track and they 
would take a meter and see how many steps it would take to get 
to Everest.
    And once you get--reach Everest, then you get a prize or 
something like that.
    Also, an alternative if we--like, if you don't have school 
time, I think starting at the family level and with the parent 
is essential because it is free to go outside and run down the 
street. It is free to go just running down the street, go to--
run for a mile.
    If you encourage kids to do that, they will--they will do 
it. And what they have to, in turn, do is make a lifestyle 
change.
    I was active for many years, but I never lost weight. It 
wasn't until I made a lifestyle change where I decided that I 
wanted to lose weight and decided that I wanted to eat well 
that I lost the weight.
    Mr. Brown. Let me add to that, you know, if I understood 
your question, you were saying that the funding is not 
available and you can't, you know, make these overnight changes 
right away.
    And that is why I mentioned in my little speech that it is 
very imperative that the parents make their kids do things or 
the parents get healthy themselves.
    Because if you are healthy as a parent, then you are going 
to make sure that your kids are healthy. That is for sure.
    I mean, I even find now that working on the treadmill is 
not like working out outdoors. I can run as hard--I can get up 
to 12 miles per hour on the treadmill, but it is nothing like 
going out on the track and running. It is just a difference.
    So you have to get the kids outside some kind of way. And I 
think, again, if you can get the parents healthy and thinking 
about health and nutrition, then automatically, I think, they 
are going to make sure that the kids are healthy.
    Mr. Castle. Thank you all very much.
    I yield back, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Payne?
    Mr. Payne. Thank you very much.
    Let me just say--let me commend the chairman for having 
this very important hearing, and obesity is a serious 
situation.
    Let me just ask Dr. Pate, you know, we could do a lot of 
things in the school and education and so forth, but in many 
communities, you know, you could--you could buy, you know, a 
weapon sometimes quicker than you could find fresh vegetables 
or food.
    And what kind of suggestions do you have about how we can 
try to change communities that if a person wanted to have good 
fresh food, as a matter of fact, even years ago in some chains, 
national chains, they would send day-old or several-day-old 
bread or vegetables and fruits into their inner city chains and 
it was less fresh even from the start.
    So do you have any suggestions on that issue?
    Mr. Pate. Thank you for that question.
    It is clear that attacking this problem is particularly 
difficult in neighborhoods that lack resources, and we do know 
that neighborhood safety is a factor that influences whether or 
not children are able to spend time outside.
    I agree very much with Tim's point earlier that time spent 
outside is a critical factor in determining the physical 
activity levels of children, but I don't know of anybody that, 
you know, would suggest that we place children in an unsafe 
environment in the interest of, you know, promoting their 
activity.
    And so I think in--you know, in those settings, we will 
need other alternatives. I think we will need creative 
accessible, enjoyable after-school programs, weekend programs, 
summer break programs that children can--can transition to and 
be enjoyably physically active.
    And, you know, as others have emphasized, the childhood 
obesity problem, as importantly as I believe it is, is 
influenced by physical inactivity. Clearly, dietary factors 
influence this.
    And sadly, we do have neighborhoods in which access to 
affordable, healthy foods, fruits and vegetables, is, you know, 
is just a challenge that we need to address.
    I certainly don't present that addressing this issue in 
neighborhoods that, you know, that are challenged in terms of 
resources is going to be easy, but we do know that the need is 
the greatest there. Those are the children that are most at 
risk of being inactive and developing overweight.
    So I just think we have to redouble our efforts and be as 
creative as we can be.
    Mr. Payne. All right.
    Ms. Benson, thank you.
    Is it mandatory in the New York City public school system 
to have physical education?
    Ms. Benson. Yes. It is mandatory. Our New York State 
standards require a minimum of 120 minutes a week of physical 
education at the--at all levels.
    It should be daily physical education at the lowest 
elementary levels, no less than three times a week at the upper 
elementary levels, and at the secondary levels, it is three 
times a week in one semester and twice in the other.
    Or actually, at our high school, it is 4 full years of 
physical education.
    Mr. Payne. Mr. Keiser, thank you.
    As a youngster, when you were overweight, did other kids 
tend to tease you or make you feel uncomfortable?
    Mr. Keiser. I was actually not a victim of bullying.
    But what actually got me was I was inconfident with myself. 
When we would go run around the track--I had P.E. in middle 
school two times a week. And when we would run around the 
track, I would be very nervous and I would not want to go out 
and run with the other kids because I would be the kid in the 
back.
    And sometimes, you know, I would--you would see kids making 
fun of you, but they would never do it to my face which was 
fortunate for me.
    But, yeah, I did--it wasn't that I was--it was outward 
bullying. I thought--in myself, that I was not confident in 
myself and I struggled with my own personal image.
    Mr. Payne. Great.
    Mr. Brown, just quickly, as a youngster growing up, I guess 
you were in pretty good physical shape, but was it your 
parents' influence? Sometimes they see potential in an athlete 
and they tell you to don't smoke, don't drink, don't stay out 
late.
    As a matter of fact, just a little anecdote, it was 
probably before your time.
    I coached--I taught Jim Tatum most of his--he was in 
elementary school when I was coaching in high school and 
noticed him as a fifth-, sixth-grader and I know he played for 
the Oakland Raiders a little before your time, I guess.
    But was there an influence from your parents or your 
environment to tell you to stay healthy?
    Mr. Brown. Not to play sports. My mom never wanted me to 
play football. I mean, even after I won the Heisman Trophy, she 
was like, well, you could have done better in band. You know? 
[Laughter.]
    So she was never--because she was afraid that I would get 
injured.
    But she was very much a part of me getting out and being 
active, and that is all she wanted me to do was basically get 
out of her hair, probably, but she wanted me to get out the 
house and be active.
    And so it was not a big push, and that is the one thing, 
you know, I know we are not here to talk about that, but I try 
to encourage parents, don't push your kids into being an 
athlete.
    If they are going to be an athlete, they are going to be an 
athlete. But my mom and dad were not the kind of--my kid is 
going to be, you know, this or that. They just wanted me to be 
healthy and active and the same with all my sisters and my 
brother.
    Mr. Payne. Thank you very much.
    Mr. Simmons. Chairperson George Miller, I want to remind 
everyone there is going to be a fitness rally at the Cannon 
Terrace right after we finish to let everyone know how 
important this is for our children, and, of course, I invite 
everyone here in the room.
    Thank you.
    Chairman Miller. Thank you. We will see if we can get 
through our questioning.
    Mr. Hare?
    Mr. Hare. Thank you, Mr. Chairman.
    Let me just--a quick personal story.
    Mr. Keller has lost a hundred and that is wonderful and he 
has been an inspiration to me. I have lost 42; that is--well, a 
year ago, I go to the doctor and he tells me, you know, your 
mother had diabetes, you are really overweight, you are got to 
do something about it.
    I just kept eating.
    I went back 6 months ago, and he said, well, now you are a 
Type 2 diabetic. Can we start talking about the exercises and 
weights?
    So I have lost 42. Went back a week ago and things are 
looking much better. Hopefully, in another 6 months, I can get 
off these pills. But it shows you that it works.
    One of the things I wanted to ask Richard and Tim: We have 
heard a lot about parents.
    You know, I have an educational advisory committee. And a 
lot of the teachers tell me the kids that they see in school 
come to school with no breakfast.
    Single-parent homes, mom is working, corn flakes are maybe 
in the cupboard, fix yourself something and then make sure you 
get ready for school.
    The concern that I have is this whole--you know, this 
parental involvement is so incredibly important. What do we 
do--and then the other--the other caveat is in my state, some 
of the school districts are cutting back on P.E. because they 
didn't have the money to afford the NCLB things and so here you 
have a child whose mom or dad may be a single-parent home, they 
are not spending much time, and the child goes and they are 
cutting back on some of these classes.
    So it is a double whammie for this young person.
    So I am interested to get from you a perspective of what do 
we need to do to really bump this up? Particularly when there 
isn't make, you know, somebody like, you know, Tim, you were 
talking about your mom and how she wanted you to, you know, to, 
you know, to expel.
    How do we do this? And thinking out of the box, maybe, for 
some of these young kids who don't have the opportunity to have 
that mentoring at home and sort of left that up to the schools 
to go ahead and feed these kids because these teachers tell me 
you can tell when these children have not have breakfast and 
how incredibly difficult it is to teach.
    Mr. Simmons. You know, we are talking about two different 
things here. We are talking about food, nutrition. You know, 
there is a lot of single parents raising a child today. Mom and 
dad get up early to go to work to have money to put food on the 
table.
    It all is about education. When a woman has a child, she 
does not take a course how to feed that child. When parents 
have a kid, they don't take a course on how to raise that kid 
properly and be a good example. I think education is the only 
way. I think we must educate the children.
    I mean, when is the last time in the United States that a 
new health book was in our school system? You know, we are 
lacking in that area. It is not all about reading science and 
math.
    I think there have to be programs at schools to educate the 
parents. There is no place else to go. There is no book to 
read.
    And right now I am going to tell you something. Men and 
women are confused about how to lose weight. There are so many 
shots, there are so many pills, there are so many stupid diets, 
and I have been on them all.
    I can only say, from sheer education and maybe the schools 
can offer programs for parents to learn more about how to be 
healthy, how to fix a healthy breakfast, how to make, you know, 
the budget last a little longer, and then the parents are going 
to have to learn how to exercise, too.
    You know, you ask the average person if they exercise, and 
they are going to say no. And I think it is education. What do 
you think, doctor?
    Chairman Miller. I hate to do this because we are going to 
run up against your rally----
    Mr. Simmons. My rally?
    Chairman Miller. And of secondary importance, votes on the 
floor of the House in the next few minutes.
    So if you don't mind, I am going to give my colleagues who 
haven't had a chance one question so we can do that.
    And so next would be Mrs. McCarthy and Mr. Sarbanes, Mrs. 
Davis, Ms. Shea-Porter, and Mr. Wu.
    Mrs. McCarthy. Thank you, Mr. Chairman.
    I want to go off the track a little bit because I agree 
with everything that has been said, you know, from my 
colleagues and certainly from the panel.
    But it sparked my imagination when Mr. Brown talked about 
the Wii video game.
    I have a handicapped son, adult, and we are always trying 
to find things that he would be able to do with his children 
and the Wii game was the answer. He has some movement in his 
right arm, but with that being said, we know 56 percent of 
children with disabilities don't get any kind of physical 
education.
    So whether you have a physical disability or even learning 
disabilities, all studies show they all improve in their 
academic scores.
    And just on the final one, Ms. Benson, why are we cutting 
down on physical education in middle and high school because 
that is when they need it the most to use that energy up so 
they don't get in trouble, in my opinion?
    But, Mr. Simmons, I know that you have a program for----
    Mr. Simmons. I work with physically challenged children, 
and I have since I have been on General Hospital when I was 
chairperson for spina bifida.
    I have developed tapes and workouts called ``Sit Tight.'' 
They are done to the kid's music, and they can--whatever a 
child can do.
    I was at a hospital a couple months ago to teach a class, 
and there was a child that was brought in, and all he could 
move was his neck.
    He was paralyzed from the neck down. But I have to tell 
you, when the music went on, I smile went on his face and he 
moved his neck just like everyone else moved their bodies.
    So I am very, very, very focused on working with not only 
the physical physically challenged but the mentally challenged, 
the autistic.
    All kids who come to my studio or come to see me in 
different cities, once the music goes on, they are just like 
any other kid and they move and they feel great about 
themselves.
    Chairman Miller. Mr. Sarbanes?
    Mr. Sarbanes. I thank you, Mr. Chairman. Terrific panel.
    Just calculating how many times you can say amen in a 5-
minute period. But I will don't have to do that but I don't 
have 5 minutes.
    It was mentioned earlier that I introduced this thing 
called the ``No Child Left Inside'' act.
    And it was premised on research and statistics that show 
how much time kids are spending not on video games where it can 
be constructive for them, as Representative McCarthy indicated, 
but in instances where it is keeping them from being outside.
    We are talking an average of 5 hours a day on video games, 
Internet, and television combined. In my house, we call it 
``screen time,'' and I try to limit the amount of screen time 
you get per day and push the kids outside the rest of the time.
    So I was just curious if you could talk about, sort of, the 
other side, the other seductive forces that are pushing against 
getting kids outside and getting them engaged in exercise and 
what we can do about that.
    Mr. Simmons. Well, I think that there are a lot of 
neighborhoods where kids cannot go out and play any more. I 
think there are just a lot of nuts running around and taking 
our children. And there are a lot of parents that are very 
afraid.
    There is not enough parks around or recreational centers 
for them to go. And matter of fact, they shouldn't go without 
their parents at a certain age, and both their parents are 
working.
    I really do believe it has to be in the curriculum of the 
school. I mean, I could go into any classroom, bring a boombox, 
put the music on. I guarantee you, within ten seconds, they are 
all moving and working out.
    They can also do it outside if it is--you know, if it is 
covered. If it is, you know, like our football man said, you 
know, you get out there and it is just outside. [Laughter.]
    Well, he is a football man. [Laughter.]
    I mean, I am a sweat man; he is a football man.
    And there isn't a lot of areas for these kids to go. That 
is why it has to be in the curriculum of the school.
    Chairman Miller. Mrs. Davis?
    Mrs. Davis of California. Thank you, Mr. Chairman.
    This is interesting and great.
    Just a quick anecdotal. I remember when we did our 
resolution when I was in the state legislature acknowledging 
that, certainly, morbid obesity was a medical health crisis, a 
major crisis.
    A got the most hate mail I have ever gotten in elective 
office for that. And so, you know, part of it, I think, is that 
we have moved in the last number of years so that people do 
understand and--it is not that people are trying to be mean to 
anybody; it is that we care about them and we care about their 
health.
    And I think that is a very strong message that has to get 
out there.
    I appreciate everything that has been said.
    Thinking about what is it--what have we done in this 
country that--that has been a link, that has been something 
where people have really changed habits and behavior?
    I think of smoking cessation as something that has alerted 
the public and has made them think about, okay, is this a good 
idea or a bad idea and what effect does it have on my kid.
    The other thing is certainly in the environment where young 
people have taught their parents over the years. I think of 
encouraging every child to wear a pedometer so at the end of 
the day, they actually can see how many steps they have taken, 
which I think it great fun and when I go on walks, I want to 
know.
    What, you know, are there some things along those lines 
that you think is a link? The data collection is very 
important.
    I think you ought to put out--really give people 
information about that. If that is the best longitudinal study 
that is being done that really affects where you are tracking 
kids achievement and how it relates to fitness, that is 
incredibly important.
    So I don't know, just a few ideas throwing out there.
    And I appreciate the work that you are all doing.
    Chairman Miller. Thank you.
    Ms. Shea-Porter?
    Ms. Shea-Porter. Thank you.
    I was known, according to my son, as the mother who had the 
most boring refrigerator in the school and that nobody wanted 
to come to my house because the snacks were boring.
    But I am here to tell you they came to my house anyway and 
my children are 19, 22, and fit and lean. And I thank all of 
you for working with other kids.
    And, certainly, I used to see you and, and thank you very 
much, Mr. Simmons, for trumpeting this cause.
    However, we haven't talked about it, as far as I know, how 
some of the schools work against the children by punishing 
children who have not finished their work or are talking 
sitting in their seats, or in some way appearing to be 
disruptive, and the first thing they do is take away recess.
    And so I wanted to ask what can we do about that? Because 
ultimately, no matter what we say here and no matter what we 
do, if teachers and principals still that technique--because we 
know that children that are disruptive actually need to move 
around, make, more than the others and have----
    Mr. Simmons. I would say when they are--when they do not 
behave, let them do 20 more minutes of exercise.
    I don't think P.E. or recess should be taken away to punish 
a child. Children are children. There is ways of making sure 
that they behave themselves better by just talking with them 
and trying to find out what is in their mind.
    But you cannot take away recess. Do you know how many 
parents write me whose children have ADD and other problems, 
and they are in the classroom all long and they don't even get 
a recess.
    This is very wrong. There is other ways to reprimand a 
child besides punishing them with no recess and P.E.
    Ms. Shea-Porter. I agree. But how do we get that out so 
that every school in every district knows that cannot be a 
policy--the teacher individually, and I understand teachers can 
be driven to the end of their rope. But I remember reading what 
a doctor said to a mom who had a very active child and she 
wanted a prescription and the doctor wrote, ``The park four 
times a day.''
    So how do we get that across so that in individual schools 
we don't see that policy still enforced?
    Ms. Benson. You know, we talk about education for our 
students, but this is also about policy education for 
administrators.
    And it is a new world. And it is really important that we 
provide the support for our school leaders so that they 
understand the benefit of physical activity, not just because 
it is a core--it is a core area that is a right for students--
but also the benefits for overall student learning and the 
environment.
    So one of the things we need to do is have that policy. 
Many districts now have district wellness policies, and that is 
a very clear position statement.
    But physical education and removal of physical education 
and activity should not be viewed as a source of punishment. 
And that is the way that we are absolutely moving with----
    Chairman Miller. Mr. Keiser, did you want to comment on 
that?
    Mr. Keiser. No, I am fine. Thank you.
    Chairman Miller. Well, thank you.
    Thank you all, to my colleagues and to the panel for your 
participation today. And to Zach and to Ron Kind for bringing 
this hearing to the committee.
    Just a couple of closing notes. I don't want this to become 
a contest between video games and physical activity because we 
are also discovering some very, very exciting things that video 
games contribute to the learning and educational experience of 
young children.
    So I don't want to get this into a different war.
    And I think we have to recognize that this generation is 
digital. And so those CDs, their music, the Internet, you get 
them up and get them moving.
    And most of the school system is still analog, and it is a 
clash that is in the classroom, and I am afraid it may also be 
on the playground in terms of how you can get young students 
moving.
    So we want to open up those avenues.
    And I will also just raise a point here that I think too 
often, now, parents put their children into sports and they 
want the next Mia Hamm, they want the next Tim Brown, they want 
the next Dr. J.--I am showing generational problems here. 
[Laughter.]
    But you also may be saying to the kids if you can't achieve 
that goal, then you are out. And, you know, we see it. We 
talked about communities that are poor in resources.
    As Harry Edwards, a sports psychologist tells us, you see 
kids in poor neighborhoods are maybe the most disciplined kid 
you have ever met, and what are they trying to do? They are 
trying to learn a reverse dunk. And they spend hours and hours 
and hours commanding that skill.
    Then the colleges back up, they take those kids out of the 
community or the sports teams take those kids out of the 
community and that is it.
    And I think if that is the reward, I have a better chance 
of being a brain surgeon than making the NBA. I mean, I am 
still waiting to be picked on the congressional basketball 
team. I have been here 34 years. But they are going to get to 
me. It is going to happen.
    So I think we also think about this reward as I think 
Richard has said--and you are not going to get to comment on 
it--but, this is about them. This is about them. This is about 
their life, about their opportunities.
    And as Dr. Pate has pointed out, all the medical indicators 
are now running against them.
    And so this is about them. And it is not about whether they 
are going to be an MVP or make the NFL or any of that.
    And I think we have to translate how we talk to children 
about this because the current system, I am afraid, just tells 
a lot of kids don't even bother to apply because you are not 
going to be able to leave in your high school senior year for 
the NBA.
    I admire those guys that do, but that cannot be the sum 
total of the message. We are going to work on the message. We 
are going to work on the legislation.
    Thank you all for your support.
    And, Richard, you got to go lead a rally.
    Thank you very, very much to all of you. All members will 
have 14 days to submit extraneous material or questions for the 
hearing record.
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Chairman Miller, for holding this important hearing on 
the benefits of physical and health education for our nation's 
children.
    Research recently released by the National Institutes of Health 
showed that the level of physical activity among children in the U.S. 
is dramatically decreasing as they move into their teenage years. Other 
studies reveal that more than one third of U.S. schoolchildren are 
obese, which illustrates how important it is to expand and improve 
physical education in our nation's schools.
    I look forward to hearing the testimony from today's witnesses and 
their suggestions for how Congress can help to combat childhood obesity 
and improve the well-being, and in turn success, of our nation's 
schoolchildren.
    Thank you again, Mr. Chairman, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    [The statement of Mr. Kucinich follows:]

  Prepared Statement of Hon. Dennis J. Kucinich, a Representative in 
                    Congress From the State of Ohio

    I would like to thank Chairman Miller for his continued commitment 
to comprehensive education and ensuring that all children have access 
to the resources that will help them become healthy and productive 
adults. I would also like to thank my friends Congressman Ron Kind and 
Congressman Zach Wamp for their persistence in encouraging healthier 
lifestyles and choices for our nation's youth.
    The problem of childhood obesity is well-documented, and we are all 
familiar with the statistics: 32 percent of the nation's children are 
overweight, 16 percent are obese, and the Department of Health and 
Human Services estimates that the figure will exceed 20 percent by 
2010. ``Adult onset'' diabetes has become a misnomer: incidence of type 
II has doubled in youth. As computers, cell phones, video game systems, 
and other types of technology become more prevalent in America's homes, 
children are redefining ``recreation'' away from physical activity and 
toward sedentary activities.
    Responses to this epidemic abound, and they need to be supported 
and enhanced. Youth need more regular physical activity, parents must 
make healthier decisions regarding family diet, exposure to technology 
must be monitored and regulated, and nutrition education must be a 
component of elementary and middle school curricula.
    At the same time, however, I believe if we are to combat this 
problem effectively we must also understand and address the causes of 
the problem. One of the causes that particularly distresses me, and one 
that receives relatively little attention, is the aggressive and 
predatory marketing of food and beverages to children and adolescents.
    In 2006 the Institute of Medicine reported that it is estimated 
that more than $10 billion annually is spent marketing food and 
beverages to youth; the vast majority of that money is spent marketing 
items with marginal or no nutritive value. Do they get a bang for the 
buck? Food and beverage sales to children and youth exceed $27 billion 
annually. They wouldn't do it if it didn't work.
    While television remains the most popular medium for marketing, 
food and beverage companies have been industrious, to say the least, in 
creating new means to market their products and create branding 
opportunities. Product placement in movies, video games, music videos, 
and even news broadcasts ensure exposure to brands and products despite 
best efforts to avoid commercials and print advertisements. Banner and 
pop-up advertisements on the internet intrude on children's surfing 
routinely, despite the best software protections. Sponsorship at school 
sporting events, advertisements in school newspapers and in prepackaged 
media, and snacks in vending machines ensure that children are exposed 
to products and brands throughout the school day. We are fast 
approaching the day, if we aren't there already, when children find 
respite from food and beverage marketing only as they close their eyes 
to sleep.
    This is not harmless advertising. Food and beverage marketing uses 
the best research available about brain development to ensure that 
their products are exposed to minds not yet fully developed. Again the 
Institute of Medicine reports that research tells us that humans 
develop consumption motives and values at an early age. In other words, 
developing brand allegiances early in life is profitable. The report 
also tells us that children have widely varied abilities to separate 
factual information from persuasive content and those abilities develop 
at different ages. In other words, it is easy to convince children that 
a product is healthy.
    I firmly believe that if we are to help our children cultivate 
healthier lifestyle habits and make better nutrition choices, we must 
protect them from marketing practices whose primary function is to 
encourage increased consumption of unhealthy products. Any policy 
response to the youth obesity epidemic must include concrete ways to 
regulate the exposure of children and adolescents to food and beverage 
marketing.
                                 ______
                                 
    [The statement of Mrs. McMorris Rodgers follows:]

Prepared Statement of Hon. Cathy McMorris Rodgers, a Representative in 
                 Congress From the State of Washington

    Thank you Chairman Miller and Ranking Member McKeon. I thank our 
witnesses for being here today to discuss the benefits of physical 
education for children.
    Access to quality and affordable health care is one of my top 
priorities in Congress. Health care continues to be one of the fastest 
rising costs to employers and employees. To fight these rising costs it 
is crucial we take more control over our health. Proper exercise, 
nutrition and lifestyle changes can often prevent personal health 
problems. We must encourage the American people to make a new 
commitment to adoption a healthy lifestyle by making healthy choices.
    Healthy living for children begins in the home. As parents and 
mentors, if we choose healthy and active lifestyles, the impact we can 
have on our children is far greater than a class in school. In addition 
to learning active lifestyles at home, extracurricular physical 
activities can have a positive impact on a young person's health.
    There is a dramatic increase of American youth who are becoming 
markedly overweight. The new found relationship between hypertension, 
diabetes and obesity is a significant health concern. It's an even 
bigger concern for minority populations of Hispanics and African 
Americans. More and more children are exercising less, and eating 
increasing amounts of widely available, inexpensive foods high in fat, 
sugar and salt. American children and adolescents are now at greater 
risk for hypertension, insulin resistant type II diabetes and high 
cholesterol due to these weight problems.
    I believe a positive solution to this current health care crisis is 
to support legislation that strengthens both physical education and 
extracurricular activities. However, Congress must be careful about 
adding federal mandates to local educational priorities. I support the 
idea of providing incentives schools to implement rigorous physical 
education programs and improving outcomes of this curriculum. Clearly, 
a priority must be placed on identifying those children most at risk.
    As a nation, we need to hold ourselves, our dollars and our 
programs responsible for our health care. We must begin to refocus our 
health sector on encouraging wellness and prevention, not simply paying 
for acute care after people become ill. We must challenge Americans to 
be healthy and our health care system should recognize and replicate 
programs that emphasize patient wellness and prevention efforts. The 
federal government, states and health insurers should build new 
incentives into health plans to encourage wellness and prevention and 
should provide incentives for people to make smart choices involving 
their health, health care and coverage. Health problems caught early 
are far less expensive to care for and the treatment is far more 
effective. A quarter of all health care costs can be prevented through 
our own lifestyle choices. We are a nation that is eating more, 
exercising less and this is making us more stressed than ever. It is 
time for us all to take control of the wheel and start steering our 
lives in a healthier direction that empowers individual with greater 
control of their lives and health.
    I look forward to hearing the thoughts and perspectives of our 
witnesses regarding of physical education programs and how we can 
better promote healthy lifestyle choices for our nation's children.
                                 ______
                                 
    [The statement of Dr. Levi, submitted by Mr. Miller, 
follows:]

 Prepared Statement of Jeffrey Levi, Ph.D., Executive Director, Trust 
                          for America's Health

    Trust for America's Health (TFAH), a national non-profit, 
nonpartisan organization dedicated to saving lives by protecting the 
health of every community and working to make disease prevention a 
national priority, is pleased to provide the Committee with our views 
on the benefits of physical education and physical activity for our 
nation's children.
    Overall, approximately 23 million children are obese or 
overweight.\1\ One of the factors contributing to our nation's 
childhood obesity epidemic is that we have created a physical 
environment that reinforces a less active lifestyle, and we have not 
compensated for this in the level of physical activity we promote in 
the schools.
---------------------------------------------------------------------------
    \1\ Ogden, C.L., M.D. Carroll, and K.M. Flegal. ``High Body Mass 
Index for Age among U.S. Children and Adolescents, 2003-2006.'' Journal 
of the American Medical Association 299, no. 20 (2008): 2401-2405.
---------------------------------------------------------------------------
    Thirty years ago, nearly half of American children walked or biked 
to school; today, less than one in five either walk or bike to 
school.\2\ For children, the placement of schools and access to safe 
venues for physical activity are particularly important. One study 
found that the primary reason that children do not walk or bike to 
school is because their school is too far away. Other concerns included 
too much traffic, no safe route, fear of abduction, crime in the 
neighborhood, and lack of convenience.\3\ In addition, a Government 
Accountability Office study found that ``areas of low socioeconomic 
status and high minority populations had fewer venues for physical 
activity'' and ``adolescents in unsafe neighborhoods engage in less 
physical activity'' than their peers.
---------------------------------------------------------------------------
    \2\ McDonald, N. C. ``Active Transportation to School: Trends among 
U.S. Schoolchildren, 1969-2001.'' American Journal of Preventive 
Medicine 32, no. 6 (2007): 509-516.
    \3\ U.S. Centers for Disease Control and Prevention (CDC). 
``Barriers to Children Walking and Biking to School--United States, 
1999.'' Morbidity and Mortality Weekly Report 51, no. 32 (2002): 701-
704.
---------------------------------------------------------------------------
    Even during school hours, many schools are not maximizing 
opportunities to promote physical activity and physical education. 
According to the Centers for Disease Control and Prevention's latest 
School Health Policies and Programs Study (SHPPS), only 3.8 percent of 
elementary schools, 7.9 percent of middle schools and 2.1 percent of 
high schools provided daily physical education or its equivalent.\4\ It 
is encouraging that the SHPPS noted that the percentage of states that 
required or encouraged districts or schools to follow standards or 
guidelines based on the National Standards for Physical Education 
increased from 59.2% in 2000 to 76% in 2006. It is very important that 
physical education classes focus on increasing physical activity levels 
and changing life patterns. In fact, physical activity should be 
promoted whenever possible before, during and after school. Yet, even 
where opportunities for physical activity may be available--such as 
school playgrounds--many communities are encountering liability 
concerns as an impediment to after-hours use of these community 
resources. That is unfortunate as there is growing evidence that fitter 
more active students perform better academically. For example, a 
research brief by the Robert Wood Johnson Foundation noted that 
``fourteen published studies analyzing data from approximately 58,000 
students between 1967 and 2006 have investigated the link between 
overall participation in physical activity and academic performance. 
Eleven of those studies found that regular participation in physical 
activity is associated with improved academic performance.'' The brief 
also noted that three other studies conducted between 1970 and 2006 
with students from one or two schools reported a positive correlation 
between physical activity and academic performance.\5\
---------------------------------------------------------------------------
    \4\ U.S. Centers for Disease Control and Prevention (CDC). ``SHPPS 
2006: Physical Education.'' http://www.cdc.gov/HealthyYouth/shpps/2006/
factsheets/pdf/FS--PhysicalEducation--SHPPS2006.pdf
    \5\ The Robert Wood Johnson Foundation. ``Active Education: 
Physical Education Physical Activity and Academic Performance.'' (Fall 
2007).
---------------------------------------------------------------------------
    To truly tackle the obesity epidemic, we must make healthy choices 
easy choices for all Americans, regardless of where they live or what 
school they attend. We need a cultural shift, one in which healthy 
environments and physical activity become the norm. Last week, Trust 
for America's Health released a new report, Prevention for a Healthier 
America: Investments in Disease Prevention Yield Significant Savings, 
Stronger Communities, which examines how much the country could save by 
strategically investing in community-based disease prevention programs. 
The report concludes that an investment of $10 per person per year in 
proven community-based programs to increase physical activity, improve 
nutrition, and prevent smoking and other tobacco use could save the 
country more than $16 billion annually within five years. This is a 
return of $5.60 for every $1. The economic findings are based on a 
model developed by researchers at the Urban Institute and a review of 
evidence-based studies conducted by the New York Academy of Medicine. 
The researchers found that many effective prevention programs cost less 
than $10 per person, and that these programs have delivered results in 
lowering rates of diseases that are related to physical activity, 
nutrition, and smoking. A copy of the report is attached for inclusion 
in the hearing record.
    Community and school-based approaches aimed at reducing obesity are 
currently being implemented and should be supported and expanded. For 
example, the Carol M. White Physical Education Program provides 
competitive grants to schools and community-based organizations to 
implement and expand quality Physical Education programs for students 
in kindergarten through grade 12. Grantees use funds for a variety of 
purposes, such as purchasing new equipment, ranging from heart rate 
monitors to treadmills, training staff, administrators and teachers, 
and funding community-based programs. Furthermore, hundreds of schools 
in at least 10 states are using the video game Dance Dance Revolution 
as a regular part of their physical education curriculum. The game 
requires students to dance in sync to music and offers them an 
innovative way to increase physical activity. In addition, some 
communities have begun ``walking school buses'' with the help of parent 
volunteers; other schools have started walking clubs. Another 
successful program is the Child and Adolescent Trial for Cardiovascular 
Health (CATCH) elementary school program, which provides education for 
students, modifications for improvements in school lunches and physical 
education, and increased education for staff and teachers. Results have 
shown that students in the program consumed healthier diets and engaged 
in more physical activity.
    One final example is the town of Somerville, Massachusetts, which 
developed a comprehensive program called ``Shape Up Somerville'' to 
curtail childhood obesity rates. The project included partners across 
the community. Various restaurants started serving low-fat milk and 
smaller portion sizes; the school district nearly doubled the amount of 
fresh fruit at lunch and started using whole grain breads; the town 
expanded a local bike path and repainted crosswalks; and the town 
targeted crossing guards to areas where children are most likely to 
walk to school. Researchers evaluated the program after one year and 
found that children in Somerville gained less weight than children in 
surrounding communities. (Growing children are expected to gain some 
weight.)
    The efforts that schools and communities have taken to increase 
activity levels should be applauded. Yet, to truly make a difference 
and help our kids to lead healthier lifestyles, we must change societal 
norms. That will require a long-term, coordinated commitment that 
extends beyond what happens during the school day. Our children need 
venues in their communities in which they can be active. At this time, 
we have no national, coordinated effort to combat obesity and promote 
active communities. TFAH supports the development of a National 
Strategy to Combat Obesity. This needs to be a comprehensive, realistic 
plan that involves every department and agency of the federal 
government, state and local governments, businesses, communities, 
schools, families, and individuals. It must outline clear roles and 
responsibilities. Our leaders should challenge the entire nation to 
share in the responsibility and do their part to help improve our 
nation's health. All levels of government should develop and implement 
policies to make healthy choices easy choices--by giving Americans the 
tools they need to make it easier to engage in the recommended levels 
of physical activity and choose healthy foods, ranging from improving 
food served and increasing opportunities for physical activity in 
schools to securing more safe, affordable recreation places for all 
Americans.
    Schools and communities can and should play a large role in helping 
to reverse the obesity epidemic and enabling children to lead healthier 
lives. If we want our children to lead healthy, productive lives, we 
need a strong partnership from the government, private and nonprofit 
sectors, as well as parents and teachers, to emphasize wellness and 
enhance nutrition and physical activity. Thank you for the opportunity 
to submit testimony on this issue.
                                 ______
                                 
    [Questions submitted to witnesses and their responses 
follow:]
                                             U.S. Congress,
                                     Washington, DC, July 31, 2008.
Lori Rose Benson, Director,
Office of Fitness and Health Education, New York, NY.
    Dear Ms. Benson: Thank you for testifying at the July 24, 2008 
hearing of the Committee on Education and Labor on ``The Benefits of 
Physical and Health Education for Our Nation's Children.''
    Representative Jason Altmire (D-PA), member of the Healthy Families 
and Communities Subcommittee, and member of the Higher Education, 
Lifelong Learning and Competitiveness Subcommittee has asked that you 
respond in writing to the following questions:
    1) According to recent studies, more than 150 million American's 
over the age of 20 are either overweight or obese. It is also estimated 
that by 2010, 20 percent of children will be obese. One way to combat 
obesity and rising health care costs is to promote physical activity. 
Currently, fifty two percent of adults do not meet minimum physical 
activity recommendations. Many Americans do not know what kinds of 
exercises they should be doing as well as how much they should be 
doing. Do you think it is appropriate for the federal government (HHS) 
to develop and promote physical activity guidelines that would give 
Americans the necessary information they need to make positive 
decisions and maintain proper health?
    2) In combating the obesity crisis, Americans need to monitor their 
nutritional intake and improve their physical activity. Currently, the 
federal government releases nutritional guidelines every five years 
based on the latest scientific research. Why don't they release 
physical activity guidelines every five years based on the latest 
scientific research?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, 
August 5, 2008--the date on which the hearing record will close. If you 
have any questions, please do not hesitate to contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

        Responses From Ms. Benson to Questions From Mr. Altmire

    1. According to recent studies, more than 150 million American's 
[sic] over the age of 20 are either overweight or obese. It is also 
estimated that by 2010, 20 percent of children will be obese. One way 
to combat obesity and rising health care costs is to promote physical 
activity. Currently fify two percent of adults do not meet minimum 
physical activity recommendations. Many Americans do not know what 
kinds of exercises they should be doing as well as how much they should 
be doing. Do you think it is appropriate for the federal government 
(HHS) to develop and promote physical activity guidelines that would 
give Americans the necessary information they need to make positive 
decisions and maintain proper weight?

    In my work in New York City's almost 1,500 public schools, we use a 
wide range of materials to provide students, teachers, and parents with 
the information they need. The question of how to educate, motivate, 
and support Americans of all ages requires a wide range of tools and 
strategies.
    In New York City, only 53 percent of public school students are at 
a healthy weight. As educators our job is to raise the level of student 
knowledge and expand opportunities for young people to increase their 
minutes of moderate to vigorous physical activity during the school 
day. We use strategies that go beyond the traditional ``gym'' class. As 
students get up and moving we are teaching them the immediate and long-
term health benefits of daily physical activity. In the past school 
year we sent home 640,000 NYC FITNESSGRAM reports in nine home 
languages offering individual information that supports students in 
learning about and measuring components of health-related fitness: 
aerobic fitness, muscular strength and endurance, flexibility, and body 
composition.
    I am looking forward to the Health and Human Services ``Physical 
Activity Guidelines for Americans'' report to be issued in late 2008. 
The report will provide science-based recommendations on the latest 
knowledge about activity and health, with depth and flexibility to 
target specific population subgroups, such as seniors, children, and 
persons with disabilities. The best thinking of the wide range of 
experts assembling the report will certainly add critical information 
to the anti-obesity campaign. http://www.hhs.gov/news/press/2007pres/
04/pr20070427a.html

    2. In combating the obesity crisis, Americans need to monitor their 
nutritional intake and improve their physical activity. Currently, the 
federal government releases nutritional guidelines every five years 
based on the latest scientific research. Why don't they release 
physical activity guidelines every five years based on the latest 
scientific research?

    This is an interesting question because it touches on one of the 
most challenging aspects of the obesity epidemic. What information and 
which combination of communications strategies will generate the 
largest behavior modification in the shortest period of time? Put most 
simplistically, maintaining a healthy weight is a balance between 
calories in and calories out. However, issues of maintaining a healthy 
life style are complicated and offer no one-size-fits-all solution. Two 
national reports issued in the past couple weeks address different 
aspects of this public health issue.
    The Federal Trade Commission's July 2008 report examined ``the 
marketing of food and beverages to children and adolescents. The report 
found that 44 major food and beverage marketers spent approximately 
$1.6 billion to promote their products to children and adolescents in 
2006. The report also tracked the food and media industries' progress 
in response to the FTC's recommendations in its May 2006 report, and 
documented steps taken to encourage better nutrition and fitness among 
the nation's children. The report included recommendations for both 
food and beverage industry members and entertainment and media 
companies to expand and strengthen their initiatives on food marketing 
to children.'' http://www.ftc.gov/bcp/menus/ resources/guidance/
foodmarketing.shtm
    The August 4th, 2008 report by the Center for Science in the Public 
Interest investigated ``the nutritional quality of kids' meals at 13 
top restaurant chains. Ninety-three percent of 1,474 possible choices 
at the 13 chains exceed 430 calories--an amount that is one-third of 
what the Institute of Medicine recommends that children aged four 
through eight should consume in a day.'' The report notes that eating 
out now accounts for a third of children's daily caloric intake, twice 
the amount consumed away from home 30 years ago. http://
www.cspinet.org/new/200808041.html
    These reports address the ``calories in'' part of the equation. On 
the ``calories out'' side, sedentary lifestyles have become the norm in 
our country. While it is true that federal nutritional guidelines are 
the best known for their recommendations on nutritional components, I 
suggest taking a look at Chapter 4 Physical Activity of the Dietary 
Guidelines for America 2005 http://www.health.gov/ dietary guidelines/
dga2005/document/html/chapter4.htm. There are specific recommendations 
for daily minutes of moderate to vigorous physical activity broken out 
for different demographic groups.
    Another invaluable resource in my work with New York City's 1.1 
million public school students is the CDC ``Guidelines for School and 
Community Programs to Promote Lifelong Physical Activity Among Young 
People.'' A look at the summary of recommendations provides a road map 
for American governmental agencies, NGOs, communities and families. 
``The guidelines include recommendations about 10 aspects of school and 
community programs to promote lifelong physical activity among young 
people: policies that promote enjoyable, lifelong physical activity; 
physical and social environments that encourage and enable physical 
activity; physical education curricula and instruction; health 
education curricula and instruction; extracurricular physical activity 
programs that meet the needs and interests of students; involvement of 
parents and guardians in physical activity instruction and programs for 
young people; personnel training; health services for children and 
adolescents; developmentally appropriate community sports and 
recreation programs that are attractive to young people; and regular 
evaluation of physical activity instruction, programs, and 
facilities.'' http://www.cdc.gov/HealthyYouth/physicalactivity/
guidelines/summary.htm
    As we increase our commitment to research, it is critical that we 
also focus on communications strategies. The most frequent analogy used 
with obesity is our country's commitment to anti-smoking initiatives. 
In the decades since the first Surgeon General's report, we have made 
significant progress in changing people's level of knowledge and their 
behaviors. If we are going to generate the same impact for obesity, 
every sector of American society must decide that we can no longer 
accept the personal and social consequences of being overweight.
                                 ______
                                 
                                             U.S. Congress,
                                     Washington, DC, July 31, 2008.
Dr. Russell Pate, Associate Vice President for Health Sciences,
Professor, Department of Exercise Science, Arnold School of Public 
        Health, University of South Carolina.
    Dear Dr. Pate: Thank you for testifying at the July 24, 2008 
hearing of the Committee on Education and Labor on ``The Benefits of 
Physical and Health Education for Our Nation's Children.''
    Representative Jason Altmire (D-PA), member of the Healthy Families 
and Communities Subcommittee, and member of the Higher Education, 
Lifelong Learning and Competitiveness Subcommittee has asked that you 
respond in writing to the following questions:
    1) According to recent studies, more than 150 million American's 
over the age of 20 are either overweight or obese. It is also estimated 
that by 2010, 20 percent of children will be obese. One way to combat 
obesity and rising health care costs is to promote physical activity. 
Currently, fifty two percent of adults do not meet minimum physical 
activity recommendations. Many Americans do not know what kinds of 
exercises they should be doing as well as how much they should be 
doing. Do you think it is appropriate for the federal government (HHS) 
to develop and promote physical activity guidelines that would give 
Americans the necessary information they need to make positive 
decisions and maintain proper health?
    2) In combating the obesity crisis, Americans need to monitor their 
nutritional intake and improve their physical activity. Currently, the 
federal government releases nutritional guidelines every five years 
based on the latest scientific research. Why don't they release 
physical activity guidelines every five years based on the latest 
scientific research?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, 
August 5, 2008--the date on which the hearing record will close. If you 
have any questions, please do not hesitate to contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

         Responses From Dr. Pate to Questions From Mr. Altmire

    Dear Chairman Miller: I was honored to have the opportunity to 
testify on July 24, 2008 before the Committee on Education and Labor 
regarding ``The Benefits of Physical and Health Education for Our 
Nation's Children.'' This letter is to respond to Representative 
Altmire's questions as communicated to me in your letter of July 31, 
2008.
    Representative Altmire posed two questions, both pertaining the 
need for federal guidelines on physical activity. Following are the two 
questions and my responses to them.

    1. According to recent studies, more than 150 million American's 
over the age of 20 are either overweight or obese. It is also estimated 
that by 2010, 20 percent of children will be obese. One way to combat 
obesity and rising health care costs is to promote physical activity. 
Currently, fifty two percent of adult do not meet minimum physical 
activity recommendations. Many Americans do not know what kind of 
exercises they should be doing as well as how much they should be 
doing. Do you think it is appropriate for the federal government (HHS) 
to develop and promote physical activity guidelines that would give 
Americans the necessary information they need to make positive 
decisions and maintain proper health?

    I believe that it is critically important that the federal 
government provide to the American people clear, scientifically sound 
recommendations regarding participation in physical activity for 
promotion of health and prevention of disease. In my view, provision of 
such guidelines is an integral step in the process of effectively 
promoting increased physical activity in the U.S. population. I believe 
that increasing physical activity is one of the great public health 
challenges currently confronted by our nation. Accordingly, I am very 
pleased that legislation has been proposed that would call on the U.S. 
Department of Health and Human Services to issue scientifically sound 
physical activity guidelines. This proposed legislation, The Physical 
Activity Guidelines for Americans Act (H.R. 5639/S. 2748) has been 
introduced by Senators Harkin and Brownback and by Representatives 
Udall and Wamp. I am hopeful that this very important legislation will 
be passed and implemented as soon as possible.

    2. In combating the obesity crisis, Americans need to monitor their 
nutritional intake and improve their physical activity. Currently, the 
federal government releases nutritional guidelines every five years 
based on the latest scientific research. Why don't they release 
physical activity guidelines every five years based on the latest 
scientific research?

    The proposed legislation mentioned above (H.R. 5639/S. 2748) would 
require that federal physical activity guidelines be issued on a five 
year revision cycle. This is the current practice for the U.S. Dietary 
Guidelines which have been produced on a five year revision cycle for 
over 20 years. In recent versions of the Dietary Guidelines some 
attention has been given to the role of physical activity in prevention 
of obesity. However, we know that physical activity provides a wide 
range of health benefits, and in my view, it is unacceptable that we 
continue to overlook most of those benefits when federal guidelines are 
issued. The Dietary Guidelines play an important role in establishing 
federal policy for nutrition. I believe that it is essential that we 
give comparable attention to physical activity.
    I was honored to serve on the U.S. Dietary Guidelines Advisory 
Committee in 2004-05, and I am equally honored to be currently serving 
on the U.S. Physical Activity Guidelines Advisory Committee, a group 
that was empanelled by Secretary Leavitt. Later this year the 
Department of Health and Human Services will release the first federal 
guidelines on physical activity. Unfortunately, we currently lack 
legislation that would require the Department to continue issuance of 
scientifically sound physical activity guidelines on a regular basis. 
The proposed legislation mentioned above would mandate that this happen 
in the future. I am very hopeful that this important legislation will 
be passed and implemented.
    Again, I was honored to provide testimony before your Committee, 
and I would be pleased to help in the future in any way that I might.
                                 ______
                                 
    [Additional material submitted by Mr. Simmons follows:]

       Printed Handout Submitted by Richard Simmons, ASK AMERICA

    I was the fat kid. You know, the kid sent to get the snacks rather 
than play in the game. The kid always picked last. I was that kid that 
tried every angle and had every doctor's excuse to get out of gym 
class.
    PE was embarrassing, almost like a punishment to me. I didn't feel 
good enough about myself to even try. Of course, there were also the 
kids who just loved sports and were good at them. You know, the stars 
of PE class, the jocks.
    Now personally, I have nothing against jocks. They are nice people 
too, but they are definitely outnumbered. Think about it: every 
weekend, hundreds of thousands of people file in to stadiums all across 
America to sit, eat and observe while only a small handful of people on 
the field actually play! Hmmmm * * *
    Fortunately for me, I did finally discover the miraculous benefits 
of good food and proper exercise as an adult, and have a wonderful 
career teaching what I have learned to love. Everyday, I speak with 
hundreds of people about their own and their families' struggles with 
weight, health and motivation.
    An alarming trend has come to my attention. Do you know that 
according to the Institute of Medicine report, `Progress in Preventing 
Childhood Obesity: How do we measure up?,' currently one third, a 
walloping 33%, of America's children are obese or at risk for becoming 
obese? Health problems like diabetes, high blood pressure, and even 
heart disease, once thought of only as adult disorders, are showing up 
in our kids! Many teens are opting for gastric bypass surgery.
    According to a May 2006 report by the National Association for 
Sport and Physical Education and the American Heart Association, only 
8% of all the Elementary Schools and only 5.8% of all the High Schools 
in the United States offer daily physical education. ONLY 5.8%!
    Because of the NO CHILD LEFT BEHIND LAW, many schools have dropped 
their PE programs and have eliminated recess for younger kids in order 
to `raise test scores.' This, in spite of the fact that many educators 
believe that physical activity helps promote learning and improve 
academic performance. My Team and I have gathered a collection of 
studies in support of this positive relationship, a relationship that 
is now in jeopardy.
    I don't want an entire generation growing up like me, hating to be 
active, and unaware of the incredible benefits of good nutrition and 
physical fitness. According to `Shape of the Nation Report 2006,' ``a 
child who is overweight by age 8 is 80% more likely to become 
overweight or obese''!
    PHYSICAL EDUCATION MUST return to a standard part of our education 
curriculum. For many kids, because of economic or environmental 
concerns, school may very well be the only place they are able to 
participate in any sort of physical activity.
    We must take PE and change it to a `Positive Experience' for every 
child!
    I prepared the simple questionnaire titled `Richard Simmons' ASK 
AMERICA,' and took my campaign to the airwaves. I was honored to appear 
on `The Today Show,' `Late Night with David Letterman,' `The Howard 
Stern Show,' `The Neil Cavuto Show,' `The Ellen Show,' `The Glenn Beck 
Show,' and many others. I'm very happy and proud to report that, in the 
end, we received over 60,000 completed surveys.
    My Team and I were amazed by the overwhelming response to our 
survey. The genuine concern and frank candidness with which each essay 
question was answered was incredible!
    The American people spoke, and their message was clear: 94% of all 
ASK AMERICA respondents want PE to be a required subject at all levels 
of education, elementary through high school.
    In February of 2007, it was my great honor to venture to Washington 
D.C. to meet my now good friends and collaborators, Representatives 
Zach Wamp and Ron Kind. We discussed crafting a bill that would return 
quality Physical Education to every public school student in the 
nation. Ultimately, HR 3257, the FIT KIDS ACT, was brought before the 
House Education and Labor Committee, led by Chairman George Miller.
    With sincere interest from the Leaders, unprecedented support from 
the public and the media alike, I pledge to continue my efforts and see 
this project through to a happy and successful ending * * * no matter 
how long it takes. Our kids, our future, deserve nothing less.
    I am aware that our nation's teachers are overworked and underpaid. 
I have a vision: members of the community joining forces with these 
fine educators; certified fitness professionals working directly under 
the supervision of certified Physical Education teachers at schools 
that may not be able to afford additional staff or equipment.
    Our children deserve our best.
                                           Richard Simmons,
                                                         July 2008.
                           additional support
Obese Kids have annual health care costs $172 over healthy weight kids. 
        University of Missouri KC
By age 15, less than 33% of teens are as active as they should be. 
        University of San Diego
VIGOROUS Physical Activity improves mathematics scores and Executive 
        Function skills. Dr. Catherine Davis, Medical College of 
        Georgia
Without an investment in Diabetes prevention now, there will most 
        likely be an increase in young adults with TYPE 2 Diabetes. 
        University of Michigan
The number of U.S. adults who are obese increased almost 2 percent 
        between 2005 and 2007. HealthDay July 17, 2008

    ``Our program is one class per week, the person is paid next to 
nothing. The funding has been cut back. We need Richard's help.''

    ``The key is getting school boards, government (on all levels) to 
recognize PE is NECESSARY and IMPORTANT. It is an investment that will 
pay off over a lifetime.''

    ``The kids have to choose between eating lunch or playing 
outside.''

    ``If you are not healthy, then what good is it going to do you to 
be smart? If you die at an early age because of overweight, then what 
good are good grades?''

    ``I supervise student teachers in elementary school and witness the 
punishment of recess being rescinded, and PE practically non-existent.
    ``However, now due to NCLB, the children do not even get a break to 
let out energy.''

    ``As a teacher educator, I am concerned that the public schools 
have taken away PE from the elementary schools. Often, the students get 
PE once a week for only the first half of the year.''

    ``Richard, the best thing the government can do is make the money 
follow the child. An equal amount of exercise dollars should be spent 
on each child in the school just like it is for books and for special 
needs children. I teach psychology. There is no question that a healthy 
body includes a healthy brain.''

    ``Our students enjoy PE immensely. They love the teacher who is 
very innovative. They look forward to it, and wish it could be more 
than once a week.''

    ``My son has always struggled in school, and he has ADHD. We 
changed schools and when he was allowed to be physical, he did 
wonderful and lost 60 pounds. His doctor couldn't believe it.''

    ``NCLB has taken out many valuable programs in our school systems 
for the sake of better test scores. The makers of NCLB failed to look 
at how these programs bring out the better side of students and that 
these programs are essential to promote the different learning styles 
of every student.''

    ``Our district gives us 36 cents per student to spend on (PE) 
equipment * * * if we're lucky! Our conditions are not very good and 
our district is a Title I district. I am glad you are helping us 
Richard.''

    ``My son has chosen to run instead of EATING at lunchtime. He has 
lost a great deal of weight because of the school's curriculum.''
                                 ______
                                 
    [Whereupon, at 12:11 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
